<html>
<title> - AGING IN COMFORT: ASSESSING THE SPECIAL NEEDS OF AMERICA'S HOLOCAUST SURVIVORS</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


                                                         S. Hrg 113-835

 AGING IN COMFORT: ASSESSING THE SPECIAL NEEDS OF AMERICA'S HOLOCAUST 
                               SURVIVORS

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            JANUARY 15, 2014

                               __________

                           Serial No. 113-16

         Printed for the use of the Special Committee on Aging


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-050 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
         
         
                       SPECIAL COMMITTEE ON AGING

                     BILL NELSON, Florida, Chairman

RON WYDEN, Oregon                    SUSAN M. COLLINS, Maine
ROBERT P. CASEY JR, Pennsylvania     BOB CORKER, Tennessee
CLAIRE McCASKILL, Missouri           ORRIN HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois
KIRSTEN E. GILLIBRAND, New York      DEAN HELLER, Nevada
JOE MANCHIN III, West Virginia       JEFF FLAKE, Arizona
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin             TIM SCOTT, Scott Carolina
JOE DONNELLY, Indiana                TED CRUZ, Texas
ELIZABETH WARREN, Massachusetts

                              ---------- 
                              
                  Kim Lipsky, Majority Staff Director
               Priscilla Hanley, Minority Staff Director
                                
                                
                                CONTENTS

                              ----------                              


                                                                   Page

Statement of Senator Barbara Boxer...............................     1
Statement of Senator Ben Cardin..................................     2
Statement of Ranking Member Susan M. Collins.....................     3

                           PANEL OF WITNESSES

Jack Rubin, Holocaust Survivor...................................     5
Anat Bar-Cohen, Daughter of Holocaust Survivors..................     7
Sandor E. Samuels, President and CEO, Bet Tzedek.................    14
Elihu Kover, Vice President, Nazi Victim Services, Selfhelp 
  Community Services.............................................    16
Lee I. Sherman, President and CEO, Association of Jewish Family 
  and Children's Agencies........................................    18

                                APPENDIX
                      Prepared Witness Statements

Jack Rubin, Holocaust Survivor...................................    32
Anat Bar-Cohen, Daughter of Holocaust Survivors..................    52
Sandor E. Samuels, President and CEO, Bet Tzedek.................    67
Elihu Kover, Vice President, Nazi Victim Services, Selfhelp 
  Community Services.............................................    79
Lee I. Sherman, President and CEO, Association of Jewish Family 
  and Children's Agencies........................................    93

                  Additional Statements for the Record

Opening Statement of Chairman Bill Nelson........................    98
Statement of Senator Robert P. Casey, Jr.........................    98
Bet Tzedek, Sandor E. Samuels' Letter to Social Security 
  Administration.................................................   100
Selfhelp Community Services, Inc.................................   108
Gregory Schneider, Executive Vice President, Conference on Jewish 
  Material Claims Against Germany (Claims Conference)............   124
William C. Daroff, Senior Vice President for Public Policy & 
  Director of the Washington Office, The Jewish Federations of 
  North America..................................................   139

 
                    AGING IN COMFORT: ASSESSING THE
                       SPECIAL NEEDS OF AMERICA'S
                          HOLOCAUST SURVIVORS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2014

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m., in 
Room 562, Dirksen Senate Office Building, Hon. Bill Nelson, 
Chairman presiding.
    Present: Senators Nelson, Wyden, Blumenthal, Collins and 
Ayotte.
    The Chairman. Good afternoon.
    We are especially delighted and honored to have our 
colleague from California, the great Senator from the State of 
California, Senator Boxer, here. And, as a courtesy, I wanted 
you to make your statement because you need to get on to 
another committee meeting.

   STATEMENT OF THE HONORABLE BARBARA BOXER, A UNITED STATES 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Chairman Nelson and 
Ranking Member Collins. I am so--I am just very grateful to 
both of you for this.
    And I also wanted to say I want to stay, but I have to go 
to the Commerce Committee. You know that well. They are having 
a hearing on a very different issue--the commercial use of 
drones, which Senator Feinstein is very much involved in. So I 
need to show my respect to her.
    My purpose here is really to introduce one of your 
witnesses from California, Sandor--or, as he likes to be 
called, Sandy--Samuels.
    Will you stand for a second?
    And he was born and raised in Los Angeles, and he serves as 
President and CEO of Bet Tzedek.
    Thank you for standing.
    Bet Tzedek stands for house of justice, and it takes its 
mission from where it was written thousands of years ago in 
Deuteronomy, ``Justice, justice, you shall pursue.''
    And I know all of us try to do that, and this Committee is 
doing that.
    Each year this nonprofit helps 15,000 individuals, 
including Holocaust survivors, on a pro bono basis. Their team 
of legal experts works to help individuals in need, whether 
their case involves debt and bankruptcy assistance, legal 
assistance involving housing or accessing reparations, for 
these Holocaust survivors.
    With 30 years of experience in the financial services 
industry, Sandy knows how to navigate complex programs, and he 
is putting this expertise to good use, helping those in need.
    And he also serves as president of his synagogue in Valley 
Village, and he is on the Board of American Jewish University 
and the Ziegler School of Rabbinic Studies.
    So I just wanted to say thank you for inviting Sandy. I 
think he is a great resource as the Senate Special Committee on 
Aging shines some light on the unique social service needs of 
aging Holocaust survivors in the U.S.
    I just want to say also that I was born when World War II 
was raging across Europe, and I will never forget, growing up, 
the countless conversations my parents had about the horrors of 
the Holocaust.
    As a child, I remember reading the Dairy of Anne Frank and 
being moved to tears by the young woman and her courageous 
battle against unspeakable evil, and I knew if I was there then 
the same thing would have happened to me.
    I also learned about the hope of Israel, finally a homeland 
for our people, after losing six million people in this 
incomprehensible genocide.
    And the U.S. itself is home to up to 140,000 Holocaust 
survivors, and they deserve the very, very best.
    And I just again want to thank both of you. Sometimes this 
issue gets off the radar screen, but I think whenever we put it 
back on the radar screen it gives us hope in humanity. And the 
two of you are doing that, and I am very grateful. Thank you 
very much.
    The Chairman. Senator Cardin, one of our witnesses, is from 
Maryland.

STATEMENT OF THE HONORABLE BEN CARDIN, A UNITED STATES SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Cardin. Indeed, and I thank you for that, Mr. 
Chairman.
    I thank Senator Nelson and Senator Collins for holding this 
hearing. I think it is critically important that we hear 
directly from the people who understand this issue the best, on 
Holocaust survivors.
    I want to welcome Anat Bar-Cohen to the witness table. She 
is a daughter of a Holocaust survivor and a resident of 
Maryland.
    So, nice to have you here, and I thank you for doing that.
    If you would just bear with me for one moment, two months 
ago, the Senate passed a resolution I introduced concerning the 
75th anniversary of Kristallnacht, a critical turning point in 
escalation of deadly Nazi anti-Semitism action.
    I have the honor of chairing the Helsinki Commission, and 
that commission for a long period of time had been leading 
efforts to make sure the world does not forget what happened in 
the Holocaust, to deal with Holocaust education.
    We welcome the work of such organizations such as Centropa, 
a Vienna-based NGO that uses digital technology to preserve 
Jewish memories and survivor stories in Europe and the former 
Soviet Union.
    I also believe it is critical to remain vigilant against 
those who would seek to deny or minimize the Holocaust, and I 
have worked to strengthen Holocaust education. I have worked 
with parliamentarians across Europe to combat anti-Semitism and 
discrimination in all forms. The U.S. Holocaust Memorial Museum 
is an example of such effort, and I have worked with others in 
Congress to ensure that the museum has copies of critical 
archival records.
    In addition to remembering and paying tribute to the more 
than six million Jewish people killed during the Holocaust and 
their families, I have worked to address the very real 
challenges that continue to be faced by survivors.
    And let me just point out; you look at the demographics of 
Holocaust survivors, and you have to understand how challenging 
it is. We have somewhere between 100,000 and 150,000 in the 
United States. Their average age is in the 80s. Twenty-five 
percent live in poverty. Worldwide, it is about 50 percent of 
the Holocaust survivors live in poverty. They have unique 
medical needs as a result of their treatment during the 
Holocaust, and they are obviously very concerned about the 
potential of being institutionalized.
    That is why it is critically important that we strengthen 
all the tools that we have available in this country to help 
Holocaust survivors.
    I introduced the RUSH Act. It is a bipartisan bill I 
introduced with Senator Kirk in the House. It is co-sponsored 
by Debbie Wasserman Schultz and Ileana Ros-Lehtinen. And it is 
an effort to say that let us pay special attention to Holocaust 
survivors because in many respects they do not know how to 
fully access all the tools that are available to help them live 
in our community, particularly with the challenges that they 
have.
    I want to applaud Vice President Biden for the statements 
that he has made and the policies that they have implemented by 
having special representatives in the executive branch to deal 
with the needs of Holocaust survivors and to sharpen the 
programs that we currently have that will help Holocaust 
survivors.
    I think all that is helpful. We need to do everything we 
can.
    And I think this hearing is a critical part of that effort, 
and I thank you very much for the hearing.
    The Chairman. Thank you for introducing one of our 
witnesses.
    Senator Collins.

      OPENING STATEMENT OF RANKING MEMBER SUSAN M. COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. Let me 
begin by thanking you for calling this hearing to focus on the 
unique health and social service needs of Holocaust survivors 
living in our country.
    These older individuals often face significant challenges 
due to the physical and emotional brutality that they 
experienced decades ago, and these challenges can be 
exacerbated by the aging process. Caring for older Holocaust 
survivors requires a special sensitivity on the part of health 
care providers, social workers, caregivers and family members.
    Of the estimated 500,000 survivors, as many as 127,000 live 
in the United States. With an average age of 80, many are at 
the point in their lives where they may be coping with a 
serious, or chronic, illness or need assistance with daily 
activities.
    Access to home care services is particularly important to 
Holocaust survivors because the emotional triggers that can be 
set off by institutional care can be devastating for them. 
Things that other residents would likely ignore can take aging 
survivors psychologically and emotionally back to their 
traumatic youth or childhood.
    Confinement in an institutional setting with certain rules, 
schedules and uniformed staff can literally bring back 
nightmares. Everyday experiences--showers, doctors, hunger, a 
lack of privacy--can trigger flashbacks and nightmares. It is 
no wonder that the focus of Jewish social service agencies is 
on keeping aging survivors in their own homes or in a familiar 
environment for as long as possible.
    Let me emphasize that I have always been a strong proponent 
of home health care. Not only is it more cost effective than 
most institutional care, but it also allows patients to stay 
just where they want to be--in the comfort, privacy and 
security of their own homes.
    The bias towards institutional care in programs like 
Medicaid is particularly problematic for survivors. While 
virtually every state has a Medicaid waiver to provide home and 
community-based care to individuals eligible for nursing home 
care, these programs are oversubscribed and there are often 
long waiting lists. According to the Kaiser Family Foundation, 
more than 150,000 aged or disabled individuals are on waiting 
lists for home or community-based care, nationwide.
    One of our witnesses this afternoon was initially told that 
her father would have to wait for at least three years to get 
the care that he needed in his own home rather than in a 
nursing facility. This simply has to change.
    I look forward to hearing from our witnesses today, 
particularly the Holocaust survivors who have endured so much. 
And I want to help make sure that they get the support and the 
care that they need to live out their final years in dignity, 
comfort and security.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Collins.
    I am going to forego an opening statement in the interest 
of time. It will be inserted in the record and in its entirety.
    Let me just say that I come to the table on this issue, 
having in the mid-90s been elected the Insurance Commissioner 
of Florida, which is also State Treasurer. And it suddenly 
dawned on me that the European insurance companies which had 
avoided this issue for some period of time, that I suddenly had 
some jurisdictional hook as the insurance regulator by virtue 
of the fact that most of them had subsidiaries that did 
business in the State of Florida.
    And so we started this process, but increasingly, I was 
frustrated because I saw how fast the clock was ticking and 
that it was getting later and later in the day, in order to get 
assistance to people that needed help. I even tried to get some 
kind of insurance product going where there would be assistance 
to people who, because of their income, needed assistance, and 
recognizing that this kind of special care would be respectful 
of the experience that they had borne.
    And so here we are, in a different setting, at a later 
time, and it is still our continuing obligation to do 
everything that we can.
    So, first we are going to hear from Jack Rubin. He is a 
Holocaust survivor. He lives in Boynton Beach, Florida, and he 
is accompanied by his son, David.
    And then we are going to hear from Anat Bar-Cohen, who 
Senator Cardin has already introduced, from Bethesda, Maryland. 
Her parents are both Holocaust survivors, and she has served as 
her father's primary caretaker prior to his death in 2009.
    So, Mr. Rubin, we will start with you.
    Whatever prepared statement you have, it will be inserted 
as part of the record.
    We want to hear from you. See if you can keep it to about 
five minutes. And then we will get into some questions.
    Thank you.

  STATEMENT OF JACK RUBIN, HOLOCAUST SURVIVOR, ACCOMPANIED BY 
                          DAVID RUBIN

    Mr. Rubin. Good afternoon, Chairman Nelson, Ranking Member 
Ms. Collins and other members of the Committee.
    My name is Jack Rubin. I was born in Valy, Czechoslavakia, 
and I am a survivor of several Nazi concentration camps and 
death camps. I have served on the advisory committee of the 
Jewish Family Services in Palm Beach County for many, many 
years, and I am here also representing the Holocaust Survivors 
Foundation-U.S.A.
    We appreciate your longtime support to survivors, Senator, 
and your holding this hearing.
    You know from our struggles dating back to the 1990s, we 
survivors have tried everything, you know, to lift our brothers 
and sisters out of this grinding poverty, and little has 
worked.
    Instead, we have been blocked everywhere--everywhere we 
have turned--in court cases, right up to the Supreme Court, in 
Congress and even seeking proper levels of funding directly 
from Germany. The small and inconsistent gains over the years 
from Germany, are handled through the Claims Conference and 
delivered in uneven and, we believe, inadequate ways, and we 
still see the poverty and the misery at tragically high levels 
still today.
    After all, out of 110,000 survivors alive in the United 
States, some 55,000 are living near or below the accepted level 
of poverty. The present system and funding levels simply keeps 
the status and will never lift survivors from their present 
tragic situation.
    The time has come to secure the realistic funding level for 
the clinically mandated services needed by survivors to lift 
them out of their present cruel situation. It is time to 
provide the actual services needed once and for all.
    Many well-meaning people seem to believe that piecemeal 
private fund-raising and volunteer services is the right way to 
go. We know that is simply not true.
    Survivors should not be forced to endure more of the same 
system that brought about this tragedy.
    We believe the actual unmet needs for survivors' care, for 
the needed amounts of emergency services and proper 
professional-based home care fund, are in the billions of 
dollars. The only fair and decent option today is a partnership 
with the German government with guaranteed funding for actual 
needs presented.
    This is why Holocaust survivors believe even at this very 
late date we must return to the origins of Chancellor 
Adenauer's promise in the 1950s. He said that modern Germany 
must take care of all the needs of the survivors because the 
savage actions of the predecessor government, the Nazi Germany 
regime, created the death camps, labor camps, medical 
experiments, torture, which has a left tragic legacy until this 
very hour.
    I have a lot of examples in my written testimony, but I 
will only mention a few here.
    The funds available and the spending limits imposed by the 
Claims Conference are so low that survivors often cannot even 
receive one hearing aid in a given year, much less the two they 
need--what a terrible way to make people live.
    Many survivors are also denied dental care they desperately 
need. Survivors' dental needs are often so extreme from 
malnutrition and torture we endured. With existing limits, it 
is nearly impossible for survivors to get a gum surgery or 
extensive dental work they need.
    The lack of proper dental care not only hurts survivors' 
dignity. It also puts them at risk of terrible nutrition and 
heart problems.
    Senator Nelson, you understand that in-home care is vital 
for survivors. Nursing homes and mental health facilities can 
conjure up the most bitter memories of the way the Nazis 
treated us.
    You tried so hard to help create a long-term care insurance 
plan for survivors almost 15 years ago when you were the 
insurance commissioner, and you were disappointed as we were, 
too, that it was blocked.
    Today, everyone admits home care is vital, but no one is 
being serious about funding the actual professional prescribed 
amounts of home care survivors really need. The recent 
announcement by Germany that it would spend $800 million over 
the next four years for home care through the Claims Conference 
is a good example. It seems like a huge amount of money, but if 
you do the math you will see that it will only provide 25 
percent of survivors' home care needs.
    While the defenders of the current system want you and your 
colleagues to back away because the numbers seem so big, this 
would be tragic. This was the way of the past.
    No more, please, please, Senator Nelson.
    We are asking the Committee to take a very close look at 
all the data and use a sharp pencil to understand what any 
given program or idea will actually mean to survivors for 
tangible help they desperately need.
    Let me also be clear about one other point. Holocaust 
survivors are not asking for more help from the United States 
taxpayers. Survivors already benefit from many programs for the 
elderly and should continue to do so.
    We hope this can be made better for all elderly in the 
U.S.A. However, U.S. taxpayers are already burdened enough and 
soon 10 million American baby boomers will be turning 65 every 
year for many years to come.
    Holocaust survivors endured ghettos, starvation, disease, 
concentration camps, killing factories and death marches. We 
came to the United States to become proud and productive 
American citizens.
    Many, many survivors served this country in combat in Korea 
and Vietnam. I, myself, am a U.S. military veteran.
    Survivors are very independent and never wanted to rely on 
their other fellow Americans for a penny of assistance. These 
same survivors have to ask for help because they can no longer 
care for themselves.
    But the United States did not cause these problems 
survivors face today. Nazi Germany did.
    Insurance companies such as Allianz, Generali and other 
European insurance companies should be also called upon to 
contribute to such a fund because of their Holocaust profits. 
The cost of a proper, comprehensive and permanent program will 
be small compared to Germany's and the insurers' resources but 
would provide a vital lifeline to survivors who need and 
deserve it.
    If only this could be the serious focus by all high-level 
persons, led by you, Mr. Chairman, it would finally cut through 
the talk and false efforts once and for all and provide 
actually meaningful care, not gimmicks which will not work, 
once again leaving survivors continuing to suffer until they 
die.
    We are losing more and more survivors every day, and they 
need our help now. We need this Committee to figure out how 
much they need for housing, dental care, home health care and 
other survivors, and then use the stature of power to help us 
secure the needed funding today, without any more delays.
    We need the President, the Vice President and the entire 
Administration, this Committee and the entire Congress, to 
pressure Germany and all the culpable corporations to fulfill 
their moral obligation to the Holocaust survivors.
    We believe in this Committee and in our elected members of 
Congress, led by you, Senator Nelson and Senator Collins, along 
with Senators Boxer, Feinstein, Mikulski and Rubio, who have 
previously supported us to take a lead, starting today.
    Thank you again, Senator Nelson. Thank you again, and 
Ranking Member Collins, for your efforts. We are depending on 
you.
    We are not schnorrers. We are not beggars. What we are 
asking for is long, long due to us.
    Thank you very much.
    The Chairman. Thank you, Mr. Rubin. Thank you very much.
    Ms. Bar-Cohen.

  STATEMENT OF ANAT BAR-COHEN, DAUGHTER OF HOLOCAUST SURVIVORS

    Ms. Bar-Cohen. Good afternoon. My name is Anat Bar-Cohen. I 
am the daughter of two Holocaust survivors. I was born in a 
displaced persons camp in Germany after the war.
    I am Co-President of the Generation After, the descendants 
of survivors organization in this region, and a member of the 
Coordinating Council of Generations of the Shoah, 
International.
    And I, too, thank you so much, Chairman Nelson and Ranking 
Member Collins and the Committee for holding these significant 
hearings.
    I am here to testify about my father's story and to 
represent the voices of the second and third generations. The 
families who have lived with the physical and emotional health 
needs of survivors all these years now face overwhelming 
challenges as survivors age and their horrific histories come 
back to plague them.
    My father was plunged into the nightmare of Auschwitz in 
1942 at age 16. After 3 years of unspeakable horror, the death 
march, he was freed in 1945 in Ebensee by the liberating forces 
of the United States of America.
    Alone, with no family or home to return to, he volunteered 
for an American Army base in Germany and, in a gesture of 
gratitude, attempted to join the American Army so he could 
fight in Japan. A letter from President Truman thanked him but 
encouraged him to pick up the pieces and create a productive 
life.
    He followed President Truman's words to the end of his 
days. He worked hard, created his own business, was a proud 
American voter and taxpayer, a loving father, husband, 
grandfather and even got to be a great grandfather.
    A widower at age 80, suffering from Parkinson's and kidney 
disease and congestive heart failure, he moved from Florida, 
Senator Nelson's home, to live with us in Washington, DC.
    After a bad fall in our multi-level home, we moved to 
Maryland to a one-level home. But then his needs increased 
dramatically, and he needed to move to an assisted living 
facility.
    After subsequent falls, it was clear he needed full-time 
and extraordinarily expensive care. In a HUD-subsidized 
apartment, his rent and full-time aide expenses were $7,834 a 
month. His income from Social Security and German reparations 
were $1,753 a month.
    Despite the family covering an awful lot of the expenses, 
it was becoming impossible to sustain him in his own home or in 
ours. In just three years, his lifetime savings, which he had 
hoped would serve him for the rest of his life, were gone, and 
he was facing an unwarranted move to a nursing home.
    As children of survivors, we know institutionalization will 
trigger extreme anxiety and the terror of once again being 
imprisoned. As Senator Collins mentioned, the inflexible 
routines, uniformed strangers, sudden loud noises, darkness and 
the loss of autonomy are experienced by survivors as intense 
post-traumatic stress disorder.
    And as the tragedies of returning soldiers--United States 
soldiers--have informed us, the long-term ramifications of 
untreated PTSD is enormous.
    As young people, survivors witnessed atrocities, even their 
families killed before their eyes. Appropriate care was not 
available to them then, but it is required by many today. They 
now relive the Holocaust in their nightmares. Short-term memory 
loss leaves them the horrors of their youth.
    Insurers denied my father long-term health care insurance, 
as they do other survivors, because of poor health--a result of 
years of forced labor, beating, starvation. Surely, their 
unique needs deserve special consideration.
    We turned to the county, the state and the Jewish family 
services as his assets disappeared and received assistance for 
hearing aids and Metro access cards for dialysis trips, but in 
a senior facility he was ineligible for any Claims Conference 
home health care. In April 2009, my father was number 9,730 on 
the Maryland Medicaid waiver list, a 3 to 4-year wait.
    In desperation, I sent a letter to Senator Mikulski, 
seeking her advice. We received a hopeful message from the 
Maryland Office of Health and Human Services in response on 
June 24th, 2009, but alas, my father had passed away on June 
6th.
    I hope my father's story helps illustrate the plight of the 
remaining 55,000 or so survivors in the U.S. living at or below 
poverty.
    The DC area Jewish Social Service Agency, JSSA, has had 
yearly budget cuts, client increases with expanded eligibility 
while the complexity and expense of needs soar. Results are 
cuts to vital services and survivors put on waiting lists.
    JSSA's 2013 projected shortfall for survivor services was 
about $600,000, with similar shortfalls projected for the next 
10 years. In response to the crisis, a community survivor 
initiative helped raise $1.9 million. Even the third generation 
has held happy hours to help raise funds.
    But private fund-raising and grandchildren-led happy hours 
cannot substitute for a systematic approach to caring for the 
Nation's aging survivors. Survivors need comprehensive, ongoing 
and affordable care to meet their special needs.
    JSSA can now provide a maximum of about 25 hours a week for 
home care to the neediest survivors living in poverty after 
these contributions. That is roughly four days a month.
    Is this really the best we can do for them?
    Affordable home health care services, access to Medicaid 
waiver programs and long-term health insurance will keep people 
like my father and other elderly Americans in their homes and 
save the system millions of dollars.
    As Jack mentioned, Chancellor Adenauer promised over 60 
years ago; Germany bears the primary responsibility for the 
welfare of the survivors and nothing less than making good on 
that promise will suffice.
    We ask this Committee to spearhead an effort to convince 
Germany to provide all necessary funding for the care survivors 
need and ensure that the Claims Conference acts honorably, 
disbursing all its funds on direct survivors' services and that 
they do it now.
    Thank you for listening to my father's story--the story of 
so many of our parents.
    Even as small children, each one of us silently pledged to 
protect our parents from further pain and misery. I was with my 
father every day for the last three years of his life, and I 
renewed that pledge to him every day.
    This is a defining moment in history. Congress can act to 
do the right thing. In 10 short years, that moment will be gone 
forever.
    In the memory of my parents, Jack and Barbara Pavony, and 
in honor of all the survivors we are blessed to still have with 
us, I say to you, do not fail them now.
    Thank you.
    The Chairman. Thank you, Ms. Bar-Cohen.
    What we are going to do is I am going to defer my questions 
and will just do a wrap-up because we have a second panel as 
well. The second panel will get into the question of some of 
the services available.
    So, Senator Collins, let me turn to you, and then when I 
turn to Senator Blumenthal, he wants a special recognition 
because Mr. Rubin is originally from Connecticut.
    Mr. Rubin. And I got you a lot votes.
    [Laughter.]
    Senator Collins. I do not know whether the audience heard 
Mr. Rubin, but those of us at the panel did.
    Senator Blumenthal. And I heard him.
    Senator Collins. And that was the most important.
    Ms. Bar-Cohen. That is what counts.
    Senator Collins. That is right.
    Ms. Bar-Cohen, I was very moved by your testimony and your 
devotion to your father. And, how lucky he was to have you by 
his side visiting him for every single day of the last three 
years of his life, taking him into your home earlier. Everyone 
should want to have such a wonderful daughter, as you clearly 
were to him.
    Ms. Bar-Cohen. Thank you.
    Senator Collins. Beginning a life in a new country, raising 
a family, building his business--all of that must have been 
consuming for your father during his younger years.
    My question is, did his horrendous experiences during the 
Holocaust come to have a greater effect on him as he grew 
older?
    Ms. Bar-Cohen. Oh, there is no question that this was true.
    You know, our particular family story--we had an added bit 
of tragedy because my mother, who was also a survivor of 
Auschwitz, contracted Hodgkin's disease right after I was born 
in Germany and she died 11 years later. So my father was also 
left a widower with two small children.
    And, of course, you know, the key was to rebuild from the 
ashes. Despite only having an eighth grade education and most 
of the family killed, he really threw himself into creating a 
new life and helping us create a new life in America. And so 
they were very consumed in those years with getting on with 
business and so on.
    But his kidney problems began in his 30s. His glaucoma 
began in his 30s as well. So--you know. But he carried on.
    But the thoughts about the Holocaust--we went back to 
Poland in 1997. He gave his testimony to the Spielberg effort, 
the witness effort. He was involved with a museum. He dictated 
his memoirs in Yiddish, and I translated them into a book. And 
so he became more and more, you know, sort of thinking about it 
and involved in it as he got older.
    And, of course, as he became more infirmed, it really 
brought him back to those years and really made life very 
difficult.
    Senator Collins. I can imagine that it would. It just is an 
issue that clearly speaks to the importance of trying to keep 
people in familiar environments as long as possible.
    I was shocked when you gave--I leaned over to the Chairman 
when you gave the statistic of more than 9,000 on the waiting 
list for services and to get the kind of care that your father 
needed was going to be a 3-year wait.
    And I think that reflects an institutional bias in programs 
that we have at the Federal level that are biased towards 
nursing home care and not towards home-based care. Has that 
been your experience beyond your father's?
    Ms. Bar-Cohen. No, I do believe that is true. The kind of 
care that people need to be able to be productive and be in 
their own homes--I saw that with other survivors, and I have 
heard that with other children of survivors, telling me many, 
many stories of what they have gone through. And it is very 
similar to what I have gone through.
    And the nursing home situation becomes the only option, and 
it is the worst option for us and for our community and for our 
parents.
    In my father's case, he was still reading the Washington 
Post every day and having lunch with other survivors where he 
was living and, of course, being involved with us in family 
events and all the grandchildren and children visiting him and 
myself.
    There was no real psychological and physical reason for him 
to be in a nursing home. He just needed a lot of care, but it 
did not have to be there.
    Senator Collins. Exactly.
    Ms. Bar-Cohen. Right.
    Senator Collins. Thank you.
    Mr. Rubin, in your written testimony, you are quite 
critical of the Claims Conference, and many of your concerns 
are related to the fact that the resources that the Claims 
Conference is providing are inadequate to meet the needs of 
survivors.
    Do you think that the Claims Conference should expand its 
work in negotiating payments from the German government to 
include other countries as well?
    Mr. Rubin. Definitely, Ms. Collins, because without money 
we cannot supply the needy Holocaust survivors who are living 
in misery, and it is not fair at this stage of the game as we 
grow older to have to live that way. They cannot live out those 
few more years as are left for them in dignity.
    And the money is there. Germany is a very successful 
country, and the insurance companies are sitting on $20 billion 
that maybe nobody is ever going to be claiming. There is nobody 
around to claim it. Most of the policies, unfortunately, were 
burned in Auschwitz, in Dachau and in Buchenwald with their 
owners, like my parents.
    My parents had insurance. My grandparents had insurance. 
But, when I came home after I was liberated, I found my home 
completely destroyed. I found nothing whatsoever.
    Unfortunately, the area became Ukraine, and I could not 
wait to get out of there. I did not want to stay under Russia. 
I wanted a free country.
    And may God rest Mr. Truman's--President Truman's--soul. He 
let me in because I was under 23 years of age, without an 
affidavit. I just had to get a ticket. And in 1947, August 3rd, 
I was in this beautiful, beautiful country of ours as a free 
man, and I was able to do whatever I felt like doing.
    Ms. Collins, I came to this country with $10 in my pocket. 
I still have $11.
    [Laughter.]
    Mr. Rubin. And I raised a wonderful, wonderful family, with 
three beautiful children with high degrees, with college 
educations. I have four wonderful grandchildren. And I am the 
richest man in the world.
    But my brothers and sisters are suffering because of the 
politics of the people who are dealing with Germany. I am not 
going to name it. We all know who it is, with every penny that 
comes into their hands that belongs to the Holocaust survivors, 
and not building Yeshivas, building schools and donating big 
monies for hospitals in Israel. Maybe 5 or 10 Holocaust 
survivors are using that hospital.
    It is not fair. That money belongs to the Holocaust 
survivors.
    And I hope and pray to God that you and Chairman Nelson 
will see to it, that we should get what is coming to us.
    Like I said, we are not schnorrers. We are not beggars. But 
we are asking for what belongs to us. And it is about time, 
willing, if not forcefully, they should come up with the monies 
that we need to survive here.
    Thank you very much.
    Senator Collins. Thank you.
    The Chairman. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman
    I want to begin by thanking our Chairman as well as Senator 
Collins for their dedication to the really profoundly important 
issue of abuse and neglect of our elderly and our senior 
population generally. This hearing is one of a number that they 
have held.
    Particularly, our Chairman has really been so devoted to 
trying to make sure that the medical and financial interests of 
our seniors are protected. And I thank him for giving us this 
opportunity to be with you today, both of you, who embody a 
great spirit.
    We tend to think of life in terms of problems, but the 
spirit that you have brought to this room, Mr. Rubin--and thank 
you for bringing the memory of your parents here, Ms. Bar-
Cohen.
    And thank you in particular, Mr. Rubin, for all your 
contributions to the State of Connecticut and particularly the 
Bridgeport community.
    Mr. Rubin. And Fairfield.
    Senator Blumenthal. And Fairfield, over many, many years.
    And I must say, on a personal note, your description of 
your coming to this country evokes the memory of my own father 
who came to this country in 1935, escaping the Holocaust at the 
age of 17, having not much more than the shirt on his back, 
knowing no one, speaking virtually no English, and this country 
really gave him a chance to succeed.
    And those who came, as you did, are among our most 
dedicated patriots because they appreciate the value of what 
this country has given them, as yours did.
    The irony is that for all of their physical needs they 
were, and are, so strong in spirit and character and values. So 
there is the irony of their strength in that area and their 
needs in other areas, which I think makes it all the more 
poignant and powerful that we address those needs.
    So I want to thank you for being here today.
    I am not going to delay the proceedings because we do have 
another panel, Mr. Chairman.
    And your testimony has been enormously enlightening and 
important to us. So we thank you for being here today.
    Thank you.
    Mr. Rubin. Thank you.
    The Chairman. A quick question for both of you. If there 
was advice from you to us with regard to some of the services 
that would be provided for the survivors, your advice?
    Jack, we will ask you first.
    Mr. Rubin. I am sorry I did not hear the question.
    The Chairman. It is a question about medical home care 
services, legal services, daily living support. What kind of 
services would you recommend that are on the forefront of your 
concern?
    And then I will ask Ms. Bar-Cohen.
    Mr. Rubin. Mostly to see to it that they could stay in 
their home and they get all the necessary services where they 
could outlive their lives at home, not in an institution, not 
in a mental house, but at home. And that takes a lot of money, 
and unfortunately, this is the problem.
    This is why we are asking Germany to come up what belongs 
to us, to see to it that we have home care, health care 
insurance. They should have been giving it to us years back, 
when you requested, Chairman Nelson.
    And this is the most important because people, when they 
are being institutionalized--I am sorry to say it, but when 
they are taken out of their homes, they are scared. They think 
they are in a concentration camp again.
    They are afraid of the nurses even because the nurses will 
tell them to go take a shower. That is what they did in 
Auschwitz. That is what they did in Dachau.
    And that is why I am requesting, if it is possible, if 
possible, to see to it that the money is there for every needy 
Holocaust survivor to live out their lives at home.
    The Chairman. Thank you.
    Mr. Rubin. Thank you.
    The Chairman. Ms. Bar-Cohen.
    Ms. Bar-Cohen. I definitely second that. I think that is 
one of the most important, if not the most important thing.
    In addition, transportation services are really crucial to 
getting to medical visits and so on and also, to getting to 
social events because if they are in their homes--and these 
people have been extraordinarily social all their lives.
    And they need each other, and they need to be involved and 
be part of the world because that is what they have done. They 
have made themselves incredible parts of the world, and they 
want to stay that way as long as they can be.
    So, home health care, affordable home health care, anything 
we can do about the Medicaid waiver really should be done, and 
these kinds of transportation services are really vital and 
crucial.
    The Chairman. You all have been outstanding. Thank you. 
Thank you very much.
    Ms. Bar-Cohen. Thank you very much.
    The Chairman. And I would ask the second panel to please 
come up.
    First, we are going to hear from Mr. Sandor Samuels. He is 
the President and CEO of Bet Tzedek, and that is based in Los 
Angeles.
    Then we will hear from Mr. Elihu Kover, Vice President for 
Selfhelp, New York City-based. Mr. Kover oversees programs 
administered to more than 5,000 Holocaust survivors in New York 
City.
    Then we will hear from Mr. Lee Sherman, the President and 
CEO of the Association of Jewish Family and Children's Agencies 
headquartered in Baltimore.
    Thank you all for being here.
    Mr. Samuels.

 STATEMENT OF SANDOR E. SAMUELS, PRESIDENT AND CEO, BET TZEDEK

    Mr. Samuels. Chairman Nelson, Ranking Member Collins, 
members of the Committee, thank you for the opportunity to 
speak with you today as we work to address the challenges faced 
by America's aging Holocaust survivor population.
    My name is Sandy Samuels, and I am the President and CEO of 
Bet Tzedek Legal Services, a Los Angeles-based nonprofit 
organization recognized internationally for our work serving 
the unique needs of Holocaust survivors.
    For 40 years, Bet Tzedek has provided high quality, free 
legal services with a core mission to fight injustice 
afflicting our communities' most vulnerable residents. Bet 
Tzedek remains one of the only legal service agencies in the 
U.S. that offers free legal services to survivors seeking 
reparations and other services, believing that we honor those 
who perished in the Holocaust by helping survivors live in 
comfort and dignity.
    In 2008, Bet Tzedek launched a nationwide initiative known 
as the Holocaust Survivors Justice Network, HSJN. The network, 
which is active in more than 30 cities across North America, 
includes more than 100 law firms, corporate legal departments 
and Jewish social service agencies. Bet Tzedek trains 
professionals from these organizations to assist survivors in 
their communities with compensation claims and appeals. HSJN 
has successfully recovered more than $23 million in new 
economic resources for our survivor clients.
    Recently, Bet Tzedek has also expanded its service to the 
survivor community by providing a broad range of legal services 
designed to meet the unique needs of aging Holocaust survivors, 
including government benefits assistance, housing, protection 
from abuse and neglect, and end-of-life planning.
    We piloted this holistic approach in Los Angeles and are 
now in the process of using HSJN to bring these services to 
other American cities with significant survivor populations.
    Holocaust survivors are significantly more likely to live 
in poverty and social isolation than other older Americans, 
with poverty rates in some communities, like Los Angeles, 
approaching three times the poverty rate for older Americans in 
general.
    Survivors are also likely to have greater health needs than 
the general population and are more susceptible to certain 
illnesses, such as osteoporosis and cognitive impairments.
    Thus, although the total population of survivors is 
decreasing, the number of survivors requiring services 
continues to grow.
    For many survivors, community-based health services that 
provide them with the ability to live independently can prove 
vital for preserving dignity and comfort at the end of their 
lives, but currently available resources are frequently 
insufficient to avoid institutional care, which can be jarring 
for members of the survivor community. As we stated before, 
standing in lines, being ordered about by uniformed personnel, 
hearing people crying and screaming, and other aspects of 
institutional life all conjure up dreaded memories.
    Due to high rates of poverty, many Holocaust survivors in 
the U.S. must rely on public benefits to meet their basic 
needs, such as supplemental security income and Medicaid at the 
Federal level, as well as state-level programs that assist 
survivors in maintaining their independence.
    Although there are no national government-funded programs 
to address the specific needs of survivors, current law exempts 
reparations payments received by survivors from being factored 
into eligibility for Federal need-based programs. 
Unfortunately, despite Bet Tzedek's efforts, government workers 
frequently are not aware of the 1994 law exempting reparations 
payments from being counted for eligibility purposes and 
survivors sometimes lose needed programs or have their benefits 
reduced.
    One such survivor, an 80-year-old client of Bet Tzedek from 
Ukraine, relies on SSI as his only source of income. In the 
1990s, the client received a lump sum payment of about $3,000 
from a Holocaust compensation program. Although these funds 
should have been exempt from being counted for SSI eligibility, 
Social Security later charged him with an overpayment of 
$37,000 for having excess resources and began garnishing 10 
percent of his SSI income to pay back this amount.
    Imagine the stress.
    The client tried to appeal on his own and was denied, but 
Bet Tzedek was able to resolve the issue and restore his 
benefits.
    We must make this rule crystal clear to all government 
employees.
    Finally, beyond government programs, limited funding for 
home care, medical and dental expenses, food assistance or 
financial emergencies may be available from nongovernmental 
sources, such as the Claims Conference, local Jewish 
communities and charitable organizations. But, despite these 
efforts, the available funding simply does not cover the needs 
of the survivor community. For this reason, it is essential 
that Congress act quickly to preserve current Federal 
assistance to aging survivors, including reauthorizing the 
Older Americans Act.
    Tragically, many survivors are ending their lives 
impoverished, alone and without access to adequate medical 
care. Holocaust survivors in the United States are entitled to 
have the final chapter of their lives be dignified and secure.
    Mr. Chairman, this concludes my testimony, and I would be 
happy to answer any questions.
    The Chairman. Thanks for what you do, Mr. Samuels.
    Mr. Samuels. Thank you.
    The Chairman. Mr. Kover.

STATEMENT OF ELIHU KOVER, VICE PRESIDENT, NAZI VICTIM SERVICES, 
                  SELFHELP COMMUNITY SERVICES

    Mr. Kover. Chairman Nelson, Ranking Member Collins, members 
of the Committee, I thank you for the opportunity to come here 
today to discuss the needs of aging Holocaust survivors and the 
services that my organization, Selfhelp Community Services, 
provides to them.
    I am also honored to follow the testimony of Mr. Rubin and 
Ms. Bar-Cohen because their sensitive and moving portrayal of 
their experiences is what drives us to do the work that we do.
    We appreciate the support and attention to Holocaust 
survivors by the Administration through the initiative recently 
announced by Vice President Biden and by Congress through S. 
999.
    We certainly thank Senator Cardin for his RUSH Act, and we 
thank Senator Nelson and Senator Kirk for their sponsorship of 
this bill, which would amend the Older Americans Act to provide 
social service agencies with the resources to provide services 
that could meet the needs of the aging Holocaust survivors so 
they can age in place with dignity, comfort, security and with 
an improved quality of life.
    Since its founding in 1936 by emigres fleeing Nazi Germany, 
Selfhelp Community Services has grown into a large health and 
human services agency serving older adults of all backgrounds, 
but staying true to its founding mission, Selfhelp is the 
largest provider of comprehensive social services to Holocaust 
survivors in North America.
    Over 75 years ago our founder make a sacred promise to 
serve as the last surviving relative to victims of Nazi 
persecution. Today, through an array of services delivered with 
care and compassion, Selfhelp is fulfilling this pledge for 
over 5,300 survivors in New York City and Long Island.
    Holocaust survivors are growing older and frailer. The 20-
year-old who survived Auschwitz is now 88. She may be coping 
with the loss of a spouse and has no family to speak of.
    In addition to the myriad of problems that are associated 
with so-called normal aging, many survivors have numerous 
physical and psychological problems that are directly 
attributable to their experiences during the Holocaust. 
Prolonged periods of starvation, exposure to severe weather 
conditions with inadequate clothing, and experiencing and 
witnessing the unspeakable atrocities take toll on both body 
and mind. And many of these problems only surface in old age, 
having been hidden during the working years when survivors 
struggled and they did make a new life for themselves as 
productive citizens of this country.
    Further exacerbating the situation, more than 50 percent of 
the survivors living in New York City and survivors elsewhere 
in this country can be classified as poor or near poor under 
Federal guidelines.
    Many people are incredulous when they discover that there 
are an estimated 120,000 or more survivors in the United 
States, and in fact, this is not just a problem for New York 
City, Los Angeles and South Florida. We have a map which we 
will submit following this testimony, which indicates 
population centers throughout the country and that it is not 
just a coastal problem.
    At Selfhelp, we have recently issued a report which is 
included with the written testimony, which analyzes the most 
recent population data.
    In the New York City metropolitan area alone, there are 
still 65,000 survivors, and those that we serve range from the 
youngest who may be in their late 60s to the oldest who are 
over 100 years of age. Sixty percent of our clients are over 85 
years of age. Sixty percent.
    The trend that we see today can only really be described as 
counterintuitive. While the number of Holocaust survivors is 
diminishing, the number of survivors in need of services 
increases daily.
    And, a case in point--over the past year at Selfhelp we 
provided services to over 5,300 survivors of whom more than 700 
came to us for the very first time. They did not need services 
before then.
    Our projections show that the need will only continue to 
grow as survivors age and experience increased frailty, 
debilitating conditions and financial distress.
    Because the crises experienced by survivors can often be 
traced back to acute loss, dislocation and deprivation during 
the Holocaust, survivors require sensitive intake and 
assessment of need, and they need painstaking care coordination 
and case management on an ongoing basis.
    Selfhelp's professionals are well versed in the 
psychological impact of the Holocaust and experts in accessing 
a wide range of benefits available to survivors.
    Selfhelp maintains a separate division of the organization, 
operating out of seven community-based service sites, focused 
solely on providing specialized care for this fragile 
population.
    To meet the range of physical and psychological issues that 
survivors have, Selfhelp has developed a comprehensive service 
approach. The key to this service model is the development of a 
longstanding, trusting relationship with a social worker who is 
responsible for care coordination. The social worker's role is 
to assess the situation of the Holocaust survivor and implement 
a plan of care to ensure that the client receives optimal 
services as well as all the entitlements that they are eligible 
for.
    We provide housekeeping and home health care services to 
enable them to remain home safely, ongoing social programs such 
as coffee houses and holiday celebrations, enhanced social 
contacts and effectively decrease isolation. Volunteers visit 
homebound clients to provide companionship and a community 
connection.
    For the frailest individuals, we serve as court-appointed 
legal guardian, which enables them to remain at home despite 
serious chronic conditions and dementia.
    And for those in financial need, we are able to provide 
emergency grants for needed items, such as air conditioners and 
medical and dental equipment, which are not covered by Medicare 
or Medicaid.
    We, like many organizations throughout the United States 
and the world, are fortunate to receive substantial funding 
from the Claims Conference. Their successes have enabled the 
worldwide network that serves survivors to be created.
    It has enabled us to expand our services significantly over 
the past years. We have been able to open new service sites, 
and that has made our services more accessible. We have been 
able to provide increased critical home care services.
    Their support is unprecedented, and it does provide a 
lifeline for tens of thousands of survivors.
    We also receive crucial funding from UJA-Federation in New 
York. They play a central role in advancing awareness and 
support for survivors in the New York community.
    The need, however, is far greater than what these two 
organizations can help us provide. The numbers of survivors who 
require care and the care that they need far exceed the 
capacity currently that the service providers have.
    So, in closing, we hope that in reauthorizing the Older 
Americans Act Congress will also include the provisions of S. 
999.
    We also urge support for the White House initiative's four-
point plan to help Holocaust survivors.
    And the United States critically should continue to be a 
leader in the arena of pressing for survivor compensation from 
other countries, and they should continue their diplomatic 
efforts, such as the Terezin Declaration.
    We should resolve property claims of survivors from Central 
and Eastern Europe.
    And, we should help with negotiating with France on behalf 
of the deportees who were transported on the French railway 
trains.
    The overarching theme is to enable Holocaust survivors to 
remain at home, in their community, with dignity and improved 
quality of life.
    Many of the survivors we serve have no family to turn to 
for support. Selfhelp is truly their last surviving relative, 
and we will serve as such for as long as a single Holocaust 
survivor remains.
    Thank you.
    The Chairman. Thank you, Mr. Kover. Thank you for what you 
do.
    Mr. Sherman.

STATEMENT OF LEE I. SHERMAN, PRESIDENT AND CEO, ASSOCIATION OF 
             JEWISH FAMILY AND CHILDREN'S AGENCIES

    Mr. Sherman. Chairman Nelson, Ranking Member Collins and 
distinguished Senators, it is my honor to speak before you 
about the unique issues affecting survivors of the Holocaust.
    My name is Lee Sherman, and I am the President and CEO of 
the Association of Jewish Family and Children's Agencies. AJFCA 
represents 125 social service providers throughout the U.S. and 
Canada that aid vulnerable populations of all faiths and 
backgrounds.
    We partner with the Jewish Federations of North America, 
and our member agencies partner with nonprofits, state and 
local government, and community businesses and organizations to 
feed the hungry, house the homeless and help families going 
through crisis. Throughout most of the country, our member 
agencies provide the vast majority of services to Holocaust 
survivors.
    Our member agencies receive funding from their partner, 
Jewish Federations, and they receive money for home care and 
emergency services through the Conference on Jewish Material 
Claims Against Germany, the Claims Conference, which is the 
largest funder of social welfare services for Holocaust 
survivors in the U.S. Still, the funding is not enough, and our 
agencies report requiring an additional $100,000 to $4 million 
annually to provide for the basic needs of the survivors in 
their communities.
    Of the 120,000 Holocaust survivors living in the United 
States today, all are elderly and a large percentage live at or 
below the poverty line, struggling to meet their basic needs 
for housing, food, health care and meaningful human 
interaction.
    These survivors need a range of services to help them 
remain in their homes and communities--home health care, 
emergency financial assistance, counseling, case management and 
opportunities for socialization in a safe, supportive 
environment.
    If these needs are not met for survivors, removal from 
one's home results in the loss of autonomy and control over 
daily life. This loss of control can trigger psychological 
impacts from experiences in the Holocaust.
    For example, some survivors may resort to hiding food in 
their rooms, insecure about when their next meal will come and 
how much food will be available to them.
    Some survivors learned long ago to fear and mistrust 
doctors, white coats or uniforms because of terrifying 
experiences with Nazi soldiers and medical experiments.
    Some survivors may unsafely attempt to stand or walk 
without assistance because during the Holocaust their strength 
sustained them while the sick and the weak were marked for 
death.
    Even survivors who have adapted well their entire lives in 
America may experience these triggers later in life, especially 
if compounded by dementia or Alzheimer's.
    This is why our agencies work hard to make sure that 
Holocaust survivors have the necessary supports to age in 
place.
    The need for social services will continue to grow as 
survivors age, and our agencies are already struggling to meet 
the demand.
    Many of the necessary services are funded through the Older 
Americans Act, and we thank the Senate Committee on Health, 
Education, Labor and Pensions for approving the bipartisan 
Older Americans Act Reauthorization Bill on October 30, 2013 
and for including in it a requirement for the Administration on 
Aging to consult with organizations serving Holocaust survivors 
and issue guidance on outreach to the survivor population for 
OAA programs.
    We thank Senator Cardin and Senator Kirk, the champions of 
Responding to the Urgent needs of Survivors of the Holocaust, 
or the RUSH Act, along with Chairman Nelson, Chairwoman 
Mikulski, Senator Portman and the other bipartisan co-sponsors.
    We also welcome the Vice President's recent announcement of 
the Obama Administration's commitment to helping impoverished 
Holocaust survivors through the appointment of a special envoy 
in the Department of Health and Human Services to serve as a 
liaison, for the commitment of the Corporation for National and 
Community Service to deploy VISTA volunteers to help build the 
capacity of organizations serving Holocaust survivors, and the 
exploration of public-private partnerships opportunities to 
increase the resources to serve survivors.
    We are extremely grateful to President Obama, Vice 
President Biden and the talented White House staff for their 
innovative ideas on addressing the social service needs of 
Holocaust survivors.
    AJFCA and the Jewish Federations of North America are 
honored to serve as leaders implementing these initiatives.
    After all, Holocaust survivors are proud Americans. They 
remember the courageous American soldiers who liberated 
concentration camps. They are grateful to the United States for 
providing freedoms denied earlier in life and for making 
possible the opportunities to succeed through hard work.
    Survivors have contributed to the fabric of our Nation, 
becoming Nobel laureates, doctors, scientists, philanthropists, 
academics and business owners. As we know, the late Tom Lantos, 
a Holocaust survivor, served as Chairman of the House Foreign 
Affairs Committee.
    Yet, as we know too well, thousands of Holocaust survivors 
need our help. Living in poverty, plagued by a measurable loss, 
they are at risk of falling into isolation and despair. It is 
for them, and to honor the memory of the six million Jews 
murdered in the Holocaust, that we commit ourselves each day to 
ensuring that those who suffered the most heinous brutality of 
the last century are able to live their twilight years with 
dignity, comfort and security.
    Holocaust survivors are living, breathing triumphs of 
survival over bigotry and hatred. I thank this Committee, my 
fellow witnesses and concerned members of the community for 
shining a light on their unique needs and circumstances.
    Thank you.
    The Chairman. Thank you, Mr. Sherman, and thank you for 
what you do.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman, and let me echo 
your gratitude to the panelists for the services and advocacy 
that they are providing.
    Mr. Samuels, you mentioned in your written testimony and 
also in your oral presentation that the reparations received by 
Holocaust survivors are not supposed to be counted in 
determining eligibility for programs like SSI, and you cited a 
horrendous example of Social Security trying to recover an 
overpayment----
    Mr. Samuels. Right.
    Senator Collins. [continuing]. From a survivor.
    And I am thinking about this from a perspective of someone 
representing a state with very few survivors, and I think it is 
even more likely that the Social Security personnel in states 
with very few survivors would not understand that those 
payments are not to be counted toward eligibility for programs 
like SSI.
    In other words, if there is a problem in LA with this, 
think what it is like for the State of Maine, an area where 
Social Security is dealing with few, if any, survivors.
    Do you know if the Social Security Administration has ever 
issued specific guidance or conducted training for its workers 
regarding the implementation of the Victims of Nazi Persecution 
Act?
    Mr. Samuels. Well, I do not know specifically if there is 
any formalized training.
    I do know that in 1984, for example, Bet Tzedek brought a 
case--it was a 9th Circuit case--that established the 
principle. And then in 1994 Congress passed a law, the Victims 
of Nazi Persecution Act of 1994, that specifically exempts 
reparations payments.
    You see, I think one of the other problems is that you have 
a number of payments that might be denominated something 
different than reparations.
    So something that is called a reparation, that is exempt. I 
think most people would know that.
    But now, for example, there is a program in Germany called 
ZRBG--I could not even begin to pronounce the German, but it is 
a pension program.
    So, if a Social Security administrator sees, oh, this guy 
is getting a pension, you know, from Germany, oh, that should 
not be excluded.
    Well, certainly, it should be excluded because it falls 
squarely within the 1994 Act, but they may not understand that.
    And I think that, you know, as much as I like to talk about 
the work that Bet Tzedek does, I do not want it to get that a 
far. You know?
    What we want to do is prevent the incorrect application of 
these Social Security rules so that people like our client do 
not have to worry about--I mean, his wife suffered such 
incredible depression that--you know, thinking that they are 
not going to be able to buy food.
    We do not want to have that happen. We need to prevent it 
at the get-go. We need to make sure that everyone in the Social 
Security Administration and all the other government programs 
where this is applicable are aware of, and apply properly and 
expansively, this principle.
    Senator Collins. I think your point is extremely well 
taken.
    And I am concerned that you are correct; if they saw that 
$400 a month pension payment that I think is about the average 
amount, that would be calculated and that it would not be 
understood.
    Mr. Samuels. Right.
    Senator Collins. Not through any malice but just not 
understanding that this is supposed to be exempt.
    And that is something that maybe we can follow up with the 
Social Security Administration on.
    Mr. Samuels. That would be wonderful. Thank you.
    Senator Collins. Mr. Sherman, in your written testimony, 
you mentioned that approximately half of the survivors in our 
country today emigrated here before 1965 and that survivors 
arriving after 1965 largely came from the countries of the 
former Soviet Union and that many of those individuals have not 
assimilated as well as earlier generations and that there may 
be language barriers, for example.
    Could you elaborate--and this is my final question.
    But, could you elaborate a little on the differences in the 
social service and health care needs of these two distinct 
populations of survivors?
    Mr. Sherman. Yes, Senator Collins. Thank you for the 
question.
    Senator Collins. And if you will turn on your mic, please.
    Mr. Sherman. I thought it was on. Thank you.
    Yes, we have seen a difference between pre-1965 and post-
1965 emigres to the United States.
    Prior to 1965, most of them, like Mr. Rubin, came shortly 
after the war, have had a longer time to be able to assimilate 
into the United States, probably in many cases had better 
educational backgrounds, not always, but have been able to take 
advantage of some of the offerings of the United States.
    Post-1965, as you know, there was a tremendous emigration 
to the U.S. from the former Soviet Union. Those individuals, 
who were also victims of Nazi terror, also lived under 
Communism for decades. So they sort of have maybe a double 
whammy, if you will, and they have been exacerbated in terms of 
their needs, both in a medical and a psychological manner.
    Also, many of them did not have the opportunity to learn 
English in the same way. They came at an older age and were not 
able to have the same economic benefits.
    So we do see differences in those populations.
    There is a larger percentage, when we talk about people who 
are living at or near the poverty line, certainly in those who 
are Holocaust survivors from the former Soviet Union.
    In terms of needs, clearly--and you identified one--the 
language need is a great one. They need translation services in 
greater numbers than others do.
    And also, just like all of the survivors, I mean, the 
opportunity to live longer in their homes and to be able to 
avoid a lot of the psychological impacts and triggers that they 
might face by going into an institution are very important.
    And we also see from all survivors that they do not have as 
large a family support network as many of the people who have 
grown up all of their lives here in the United States.
    And it is wonderful to hear the testimony of Ms. Bar-Cohen 
and what she could do for her father, but we also know that her 
parents probably did not have siblings who came and that they 
lost many family members in the Holocaust and they do not have 
those family support networks.
    And so that is where our social service agencies, like 
Selfhelp in New York and the others across the country, really 
come in.
    Senator Collins. Thank you.
    The Chairman. Senator Ayotte.
    Senator Ayotte. Thank you. I want to thank the Chairman and 
the Ranking Member for having this very important hearing.
    And I wanted to ask Mr. Kover; I was interested in reading 
in your testimony the challenge that Holocaust survivors face 
with unmet mental health needs.
    Obviously, given the horrific things that they have seen 
and experienced, Holocaust survivors are at high risk for post-
traumatic stress disorder, chronic depression, as well as 
anxiety. But along with other things that come with aging in 
and of itself, that can be exacerbated by the experiences that 
they have had with the Holocaust.
    So I wanted to ask you; in your written testimony you 
talked about one of your clients who was able to link with 
supportive counseling to help address depression and anxiety.
    What have you seen as some of the barriers to making sure 
that survivors are able to receive proper treatment and health 
on the mental health end?
    Do you think that there is sufficient availability of those 
who are professionals who have some knowledge of the unique 
circumstances of the Holocaust survivors and training to be 
able to give them special assistance?
    And I wanted to get your thoughts overall of what we could 
do to help on this gap.
    Mr. Kover. Okay. I think we see a range of mental health 
needs among survivors.
    What we do at Selfhelp and is done throughout the Jewish 
family service network is we do provide supportive counseling, 
which is to assist somebody so that they can be at home and get 
the services they need, and that needs sensitivity to the 
unique needs of Holocaust survivors.
    But at one end of the continuum are survivors with extreme 
mental health needs, and these are people who are experiencing 
severe mental illness, or severe anxiety, and severe disorders, 
and need not the help of a social worker but really move into 
the arena of needing the help of a psychiatrist or trained 
clinician.
    And, for that, it is very difficult to find the services 
they need. There are several barriers.
    The first is among the survivors themselves. Most older 
people and survivors in general do not go seeking mental health 
care, and so they will not go to a mental health facility. They 
will not travel to get that kind of care.
    So what we found is that if we can bring that care into the 
home, in a much more comfortable setting, the survivor is more 
likely to accept that care and to benefit from that care.
    In New York, we have been very, very lucky to have two 
specific programs that do this. With funding from the UJA-
Federation of New York, there has been able to be established a 
mental health outreach program, both in the Bronx through 
Montefiore Hospital and in Brooklyn at Maimonides Hospital.
    That has been a unique experience in which psychiatrists 
develop personal relationships with survivors. They will go 
into the home. They can assess the condition. They can 
prescribe medication. They can refer for ongoing treatment. But 
the service needs to be put together with a really personal 
connection of somebody coming into the home.
    These are very limited programs because Medicare 
reimbursement for mental health services is straightforward and 
limited. And so, for psychiatrists, they would not willingly go 
do home visits because the reimbursement rate just is not 
conducive for that amount of service. It takes a long time to 
build a trusting relationship with survivors, not just in each 
visit but also over time.
    And so the reimbursement rates under Medicare are quite 
limiting and do not permit this, and we think that some 
adjustment to that would be a benefit to survivors and to all 
elderly as well, to recognize those special needs.
    Senator Ayotte. Yes. No, I thank you for raising that 
because, obviously, keeping people in their home and treating 
them in their home; not only is it more humane and a better way 
for someone to be able to receive the treatment and to have 
quality of life, but also the cost issue usually is better in 
the home as opposed to putting them somewhere else. So I think 
that is a very important issue in terms of looking at Medicare.
    I wanted to ask; just briefly, in your testimony, you 
know--and anyone is welcome to jump in and comment--you also 
noted that you appreciated what the White House was doing on 
the four-point plan to help Holocaust survivors. And one of 
those components is to continue the international diplomatic 
efforts, to pursue not only compensation but property claims.
    I just wanted--you know, many of us serve in committees 
beyond this, too--of wanting to know how we could help in 
pushing those efforts and particularly as we have meetings 
with, you know, representatives from other countries and how we 
could help the Administration on that.
    Mr. Kover. If I could just lead off, recently, there was 
the Terezin Proclamation that was signed on by over 40 
countries worldwide regarding Holocaust survivors and 
compensation, and I do not know that there has been any 
successful outcome to that at this point.
    And, in particular, certain countries, such as Poland, have 
numerous outstanding compensation claims that have not been 
resolved. And there are numerous Polish survivors who, should 
there be ability for a compensation claim, would benefit 
financially, and it would significantly improve their lives 
here in this country.
    Mr. Samuels. I know one area that I think was mentioned 
earlier involves the French railroad, which has not really 
stepped up and done anything for its liability in the horrors 
that were committed under the aegis, you know, during the war.
    And the Holocaust Railway Justice Act--and thank you, 
Chairman Nelson, for supporting that act. That is something 
that I would hope the Congress would take up and give serious 
consideration to.
    Senator Ayotte. Very good. Thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I want to commend 
you and the Ranking Minority Member.
    I think this is a very important hearing, and I was 
listening to a bit of it. We are juggling in the office as 
well.
    And this is a particularly important topic in the Wyden 
household. My parents were German Jews. They all fled the Nazis 
in the 30s. Not all got out. We lost family at Kristallnacht 
and Theresienstadt.
    And I remember the account from my parents for years and 
years. My mother's side got reparations for many, many years.
    So, as far as I am concerned--I am not sure everybody in 
the audience would automatically identify with the phrase of 
tikkun olam. But, as far as I am concerned, your organizations, 
day in and day out, are practicing tikkun olam or are in the 
perfecting-the-world business.
    I just want you to know, having watched your work for many 
years and having worked with a number of the people involved in 
your programs, we so appreciate what you are doing.
    I have only one question. I was trying to follow this 
situation that came out not too long ago with respect to the 
fraud that was perpetrated on the Claims Conference--the Claims 
Conference Hardship Fund and the Article 2 Fund.
    And I think we all agree the Claims Conference does 
terrific work for the community, and of course, those funds 
make reparations directly to Holocaust survivors.
    An employee of the Claims Conference was sentenced to eight 
years in prison for his role in this particular scheme, and my 
understanding is it has hurt more than 100,000 Holocaust 
survivors and, of course, many of them who live in poverty.
    Give me your sense because these are good people who are 
very committed.
    And I gather there was an internal report that came out a 
year or so ago.
    What is the status now with respect to the safeguards and 
the oversight that we all want to ensure, the integrity of the 
program, so that every single dollar gets to the people who so 
desperately need the good work that you all are doing?
    Mr. Sherman. I can address some of that, I think.
    I am from the Association of Jewish Family and Children's 
Agencies, and we have agencies across the country who receive 
Claims Conference funding. And certainly some of the 
requirements of those agencies in terms of reporting have been 
increased, and probably Selfhelp, as an example of an agency 
that gets Claims Conference funding, could speak to that more 
directly.
    But it is our feeling that the fraud was handled, that it 
is a thing in the past, that all of the oversights that are 
necessary are currently there.
    And I think that, most importantly, of course, the major 
funder of Claims Conference funding comes from the German 
government itself right now. And in the last negotiations with 
the German government and with the Claims Conference that were 
concluded last May, the German government agreed to an increase 
in their funding for the years 2015 through 2017, which I think 
shows a level of confidence in the way that the Claims 
Conference works and the way that they distribute funds and 
ensuring that those funds actually get to the social service 
agencies to provide those vital services to the individuals 
that require them.
    Senator Wyden. Good. Others?
    Mr. Kover. I agree with Mr. Sherman's comments.
    I also want to point out that the funds that were obtained 
fraudulently; no survivor had any impact. There was no current 
survivor who lost money because of that. My understanding is 
that those were just false claims that were made and actually 
it was Germany who paid out money, but it did not impact any 
survivor in their own pocketbook.
    Senator Wyden. With respect to the fraud, my understanding 
was it took place over a decade, and that was what concerned 
me. Is that right?
    In other words, if you had this individual and he was able 
to do something for six months or something like that, that 
would be one thing. But my concern was having heard about it 
over a decade; that was why I wanted an update.
    And I am pleased that you mentioned the increased oversight 
and vigilance because as much as anything, when you have a good 
program--that is why I started by saying the Claims Conference 
does incredibly important work--what you want to send in a 
message to all concerned is these are people who have both 
their heart and their head in the right place.
    And if you think that this has been cleaned up, that is 
very much what I wanted to hear this afternoon.
    And, again, just keep practicing tikkun olam because I 
think a lot of survivors--and Jewish Family and Child Service 
is a special program in my hometown, in Portland, helps every 
single day, and we are very appreciative of it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wyden.
    You heard Ms. Bar-Cohen say that in her personal example 
the expenses had exceeded $7,000 a month, but the amount that 
she had received in assistance was something like $1,400 or 
$1,700.
    So what is your recommendation to us that we would try to 
do in the future?
    We have had different suggestions. Jack had said, go after 
the European insurance companies.
    Mr. Kover. Good answer.
    I think there are some problems that are beyond a very 
specific group to solve, and there are some problems that 
really only government can solve.
    For one situation, in New York--and I assume elsewhere in 
this country--affordable housing for senior citizens is a 
terrific problem. In New York, there is just not enough senior 
housing available for all of those who need it, and as you are 
probably aware, in New York City the cost of housing is not 
insignificant.
    What gets exacerbated is when two people living together on 
Social Security can just barely manage, but they just barely 
manage. And then the husband passes away. And now you have a 
wife living on one Social Security, and where they could just 
barely manage, now she can no longer manage.
    And, if this is a Holocaust survivor who has lived with her 
husband in that apartment for 50-some odd years, to have her 
move, to even find a place for her to move; there is no place 
to move.
    The problem is to find a way for her stay there. In some 
cases, there is no way for her to remain there, and 
institutional care may end up being the only option.
    So what we have seen in New York and what we have seen 
countrywide is that there was a program, the Section 8 voucher 
program, which enabled some ability for people to stay in 
place, age in place, when such a situation occurs. And that 
program has really been frozen, and in New York City there are 
no new vouchers available.
    And so it is a very difficult situation.
    Also, to address affordable housing, I think one other 
option is we at Selfhelp have built seven apartment buildings 
for seniors. The first two were built for Holocaust survivors. 
We have recently, on our last building, obtained preferential 
for 10 percent of the apartments to be given priority to 
Holocaust survivors. So we recognize that situation.
    If the Federal Government would do something towards that, 
you know, in fact, mandating that 10 percent of apartments in 
all new affordable housing built for seniors be set aside for a 
special population such as survivors, I think that would assist 
in some way as well towards the affordable housing that is a 
major problem for seniors and for Holocaust survivors.
    Mr. Samuels. Senator, one of the issues clearly is there 
just are not enough funds available.
    But another issue to look at is some of the regulations, 
especially relating to caps. For example, on in-home supportive 
services, there are caps on the amount of services that you can 
get in order to qualify for possibly another program that might 
supplement, you know, your ability to receive this kind of 
help.
    And I think that somebody needs to take a look in a 
holistic way at all of those services, at all of those 
opportunities to get in-home supportive services, because we 
would agree that this is at the top of the list for helping 
survivors live out their lives in dignity and security.
    But there are these, as I said, caps on their ability to 
get enough hours of supportive services in-home, and that is 
something that really needs to be looked at.
    Mr. Sherman. And, if I could just add to that, I think one 
area that Congress can certainly be an important part of is 
making sure that the gap that Ms. Bar-Cohen explained does not 
grow.
    And I think number one on the list is reauthorization of 
the Older Americans Act because certainly Holocaust survivors, 
along with all of our aging population, benefit greatly from 
the services that are provided through the Older Americans Act, 
whether it is--whatever kind of services it may be, including 
meals and adult day care and other services that come through 
that Act.
    Number two, I would say, is to end the sequestration. We 
have heard from our agencies--probably over 50 percent of our 
agencies that responded to us when we asked them--have already 
been notified from their Area Association on Aging that they 
would be cut, that their cuts are coming for their congregate 
meals programs, home delivery meals programs, other things that 
they do. Many of the people that they serve clearly are 
Holocaust survivors.
    And so, I think there is something we can do to make sure 
that gap does not grow.
    And, in addition, as some of the comments made earlier in 
terms of looking for additional funding, whether it is from 
foreign governments, like Germany, to contribute--we are 
working closely, as we said before, with the White House 
initiative and thinking about a public-private partnership to 
raise additional funds to help serve this population that is in 
need, and in critical need right now, with gaps that are 
growing.
    So, thank you.
    Mr. Kover. I would like to add one more comment in terms of 
needs of survivors.
    As we move in this country to a more managed care health 
care system, a problem for survivors who have difficulty in 
accessing services and benefits in general, and require the 
assistance of a care coordinator or a case manager, will become 
even more critical as the system becomes more regimented in the 
health care world.
    And, if there is a way to either fund more care management 
and care coordination services in the community at large, or 
ensure that the managed care system enables care coordination 
within that system to pay attention to the specific needs of 
Holocaust survivors, that would be critical for this population 
that we serve.
    The Chairman. You have been excellent. This has been a most 
enlightening hearing.
    We thank you for your participation. For Mr. Rubin, for Ms. 
Bar-Cohen, thank you.
    The meeting is adjourned.
    [Whereupon, at 3:51 p.m., the Committee was adjourned.]   
      
      
=======================================================================


                                APPENDIX

=======================================================================


                      Prepared Witness Statements

=======================================================================


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                   Exhibits to Jack Rubin's Statement
Prepared by Barbara Paris, MD, FACP, Vice-Chair Medicine & Director of 
           Geriatrics, Maimonides Medical Center, Brooklyn NY
    First Generation: Often live alone and either have no family at all 
or family members do not live in reasonable proximity to assist with 
finances, day to day needs, guide decisions, provide oversight or 
companionship. This raises many issues as survivors age and face 
increasing frailty, chronic and acute medical illnesses and memory 
loss.
    Home Care Attendants: Private pay help is unaffordable for most, 
even those who are not sufficiently impoverished to qualify for Home 
Medicaid. As Medicaid dollars become increasingly scare, very elderly 
at-risk patients are denied 24 hour care unless they are bedbound with 
bed sores or worse. Many are also caught in the gap of not being sick 
enough for 24 hour home care, but also not sick enough to be accepted 
to a nursing home. Most also would prefer to stay at home, but that 
becomes a challenge when there is no family oversight or back-up.
    Mental Illness: With more time on their hands as they age and no 
longer work or have primary responsibility for their children, their 
minds return to the traumas of the war. In addition, with early or 
moderate dementia and even mild cognitive impairments, the ability to 
suppress these memories falters. Depression, anxiety and post-traumatic 
stress disorder increase, yet are often underdiagnosed and inadequately 
treated by health care providers, most of whom are not educated about 
the special issues of aging survivors. Patients' behavior is often 
misinterpreted as non-compliant, annoying, somatization etc. Patients 
themselves may also feel stigmatized by the suggestion of a psychiatry 
consultation.
    Companionship: There is a tremendous sense of loneliness and lack 
of companionship. Children and grandchildren (if they exist) cannot 
adequately fill the gap--with age, survivors feel the loss of their 
spouses, parents, siblings, etc., with ever greater intensity. Home 
attendants can clean, cook, shop and bathe, but they are not 
companions. Dorot in Manhattan is a wonderful organization that 
provides friendly visitors, educational programs without walls etc.--
but there are fewer, smaller scale and more difficult to access similar 
programs in Brooklyn.
    Goals of Care: As these patients approach the final years and 
months of their lives and become increasingly debilitated with 
diminished quality of life, health care providers need to have 
sensitive discussions with survivors to minimize aggressive and often 
futile and painful procedures and hospitalizations, often without the 
benefit of palliative and or hospice care. Court appointed guardians 
are also often limited in their ability to help set appropriate goals 
of care in this setting.
    Second Generation: This is another area of tremendous unmet need, 
many of whom are themselves now senior citizens with significant 
unaddressed physical and psycho-social issues. Families are known to be 
significantly dysfunctional, have tremendous problems caring for their 
parents, themselves and their own children. We need to recognize and 
begin to address and support their needs, and also recognize them as 
survivors.
Summary Points
    1. Coordination of Services: Although there are many agencies that 
provide various ``pieces of the pie'' (Self-help, JASA, Met council, 
Bikur Holim) there is no coordinated effort or umbrella that can help a 
health care provider, patient or family coordinate all of these 
agencies, easily access their services and assure that the patient's 
needs are being met by a combination of these services. There is no 
central way for a given provider, patient or family to even know what 
array of services currently exist for survivors in a given 
neighborhood.
    2. Minimize the Paperwork: Many providers are hesitant to advocate 
with these agencies or the Claims Conference due to repetitive and 
endless forms that follow a request, often without light at the end of 
the tunnel.
    3. Home Care, Assisted Living and Nursing Homes: Elderly survivors 
with multiple illnesses and functional limitations who are isolated at 
home with no family to assist should be entitled to 24 hour home care 
and options for low cost assisted living facilities. There are no 
reasonably priced, subsidized, assisted living care facilities geared 
toward the dietary and psycho-social needs of survivors. In addition 
for those who require nursing home, that do not have Medicaid, the 
rates are unaffordable and should be subsidized for this population.
    4. Mental Health Services: We need to train and have easily 
accessible mental health counselors, social workers, psychologists and 
psychiatrists who understand the issues facing both first and second 
generation survivors, whose services are financially accessible 
(sliding scale or free). These services are not currently or very 
minimally covered by health care insurance. Transportation costs need 
to be covered and in many cases the counselors need to go into the 
patients' homes.
    5. Companionship: There needs to be a centralized effort to develop 
regional availability of both volunteer and paid friendly visitors who 
are educated in the special issues of both first and second generation 
survivors.
    6. Special Programs: A cadre of special programs around holidays, 
summertime should be available--a week in the Catskills with dietary 
laws adhered to etc. . . . Many survivors are all alone on Jewish 
holidays, have no celebrations or any moments of joy.
    7. Advocacy: There needs to be regional access to health care 
providers, lawyers etc. who are willing to both treat and advocate for 
survivors and participate in establishing goals of care and act on 
their behalf. Financial support for these services should be 
subsidized.
    8. Second Generation Plans: This requires an assessment of the 
scope of the financial, psycho-social and medical needs of this 
generation. There will need to be programs, support networks and 
services set up and accessible to address their needs.
Addendum
Case 1
    98 year old widowed survivor with one son who is bedbound and 
confused s/p massive stroke. The patient is alert, anxious, has severe 
degenerative joint disease, unstable gait with frequent falls and 
hypertension on medications. She lives alone. She is not wealthy but 
she is not Medicaid eligible. Although she is fortunate to have no 
skilled nursing needs, she is frail and at risk living alone. Her lack 
of memory impairment and no skilled nursing needs make her not eligible 
for full-time home care or nursing home. She is falling through the 
cracks of all systems. She is unable to afford an assisted living 
facility which would be a reasonable option, if it was affordable.
Case 2
    96 year old widowed survivor who has one son in another State and 
another son who is disabled with chronic mental illness. The patient is 
currently in a sub-acute setting after having suffered a stroke that 
left her with right sided weakness of her arm and leg. Although she is 
mentally intact, she is unable to perform activities of daily living 
without assistance due to her stroke. She does not qualify for Medicaid 
and she cannot afford private pay 24-hour home attendants or the daily 
nursing home rate. Long term care is reasonable option, if the rate 
were subsidized and more affordable.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Introduction
    Alpert Jewish Family & Children's Service of Palm Beach County, 
Inc., (AJFCS) has been serving Holocaust survivors since the early 
1970's, as a beneficiary agency of the Jewish Federation of Palm Beach 
County. However, the numbers of Holocaust survivors has increased 
dramatically since the late 1990's and it is estimated that there are 
between 8,000-12,000 survivors in Palm Beach County. The Holocaust 
survivors that we serve are a heterogeneous group; having had varying 
experiences during the war.
    The basic needs of Holocaust survivors, as they are with all 
victims of atrocity relates to the complications during the aging 
process. The process of aging might be challenging for the most 
typical, successful individual; however, for survivor's it usually 
creates extreme anxiety, vulnerability and deep-rooted expectations of 
death. It is critical that Survivor's, because of their unique 
experiences are not prematurely placed in nursing homes. There is a new 
field of knowledge emerging, which addresses issues of ``re-
institutionalization'' and multi-generational legacy of trauma.
    In our experience, it is most important to recognize that for 
survivors, asking for help is often difficult. Our professionals and 
Survivors on our Advisory Committees routinely confirm the reticence of 
survivors to seek help. All of our survivors have re-located to Florida 
to escape the harsh winters of the north and a review of the 
professional literature confirms that life-event stressors such as 
moves, even when desirable, as we age can create feelings of 
vulnerability that evoke memories related to their Holocaust 
experience.
    Our survivors, like all other elders need to be treated with the 
utmost respect and dignity. They also require a unique focus--driven by 
their traumatization and past life experience--which demands a more 
sensitive approach when working with this population.
    It is critical that survivors are recognized as having unique 
needs; and that needs require attention prior to them being elderly and 
frail. Early intervention with supportive services will assist them as 
their needs change and they become more frail and in need of more 
extensive services in greater frequency and duration.
    The needs of survivors need to be met by culturally competent, 
well-qualified clinical professionals.
    While many survivors will need help in the future, those who 
require it now, need it NOW!
Summary Concerns and Issues With Current Funding
    Keeping in mind that while the current eligibility requirements to 
access CC funding for Holocaust survivors who need in-home care are 
more ``generous'' than previous requirements, there are many survivors 
who continue to need more care than is possible through current 
funding.
    In-home care is defined here as assistance with Activities of Daily 
Living (including Instrumental Activities of Daily Living).
    <bullet>  A survivor may not receive MORE than a total of 25 hours 
a week of in home care.
    <bullet>  The average number of hours provided to a survivor is 16 
per week, determined by a comprehensive professional assessment.
    <bullet>  A professional diagnostic tool is used to assess the need 
for in-home care for each survivor. This tool ``scores'' the CURRENT 
(snapshot) needs of the survivor and determines the number of in-home 
hours of care, per week. If there is a sudden change in functioning of 
the survivor, a reassessment can be performed, which most likely will 
change the score and thus more hours; although STILL only up to a total 
maximum of 25 hours a week.
    <bullet>  The capacity and ability to ``secure'' additional hours 
for a survivor would be helpful when there is an emerging medical/
psychiatric situation, where it would be helpful to be more proactive 
and establish additional hours to mitigate against such crises from 
occurring.
    <bullet>  Of those we currently serve, approximately 25 percent 
(40-45 clients) could benefit from more than the maximum 25 hours 
allowable--to keep them in their own homes for as long as possible--
alleviating the emotional distress of inappropriate placement in more 
costly skilled care facilities
    <bullet>  Proactive in-home care to caregivers by providing respite 
and support would be critical to alleviate a health crisis or caregiver 
burnout
    <bullet>  For those who live alone--additional hours for 
socialization and monitoring would mitigate against the isolation and 
it is recognized that, ``social isolation has been linked to an 
increased risk for morbidity, mortality, and cardiovascular disease'' 
(Hawkley et al., 2003, Sorkin et al., 2002), and more recently, Wilson 
et al., 2007 States that ``social isolation has been shown to increase 
risk for dementia and Alzheimer's disease among older adults''.
Needs of Survivors
    Instrumental Activities of Daily Living (IADL's) for example: 
transportation, light housekeeping, grocery shopping, meal preparation, 
bill paying, appointment scheduling, medication management, etc. This 
need is compounded because of the lack of public transportation system 
in our service area. Those survivors, who can no longer drive due to 
medical reasons, are literally ``trapped'' and dependent, especially if 
they require assistive devices for walking; are frail, have dementia, 
feel afraid or are vulnerable. If they are frailer, even if they are 
able to drive, because of their physical limitations require that they 
receive assistance with these activities as well. Many of these needs 
directly impact the Holocaust survivor's sense of dignity and 
vulnerability. These services are covered by the CC grant for those who 
are eligible, but only up to a maximum of 25 hours a week.
    Companionship services, for non-medical needs. This is an 
especially important emotional need that survivors have, since many of 
their cohort are older and also frail. Relationships are interrupted 
and for the survivor, to be able to have another senior interact with 
them on a regular basis is critical to their well-being. 
``Companions'', are seniors themselves who are recruited and then 
matched with a survivor; they often speak Yiddish. Companion services 
are helpful to caregivers who can receive respite care from a companion 
for the person they are caring for. A portion of these services are 
paid for by the CC grant.
    In-home nursing and medical services include assistance with ADL's 
(Activities of Daily Living): bathing, eating, dressing, toileting, 
etc. Survivors who are physically or mentally impaired require 
assistance with personal care to maintain their basic needs. These 
services are covered by the CC grant for those who are eligible, up to 
a maximum of 25 hours a week (not in addition to other in-home 
nonmedical care. The total possible in-home care of all kinds is a 
maximum of 25 hours a week).
    Care coordination is a professional intervention that can be 
implemented at any stage of the individual's continuum of need and may 
vary in frequency, duration and intensity to match the needs of the 
client. Care Coordination is required to coordinate services for 
clients, support the integration of care and provide support and attend 
to their psycho-social process as they age. A portion of these services 
are paid for by the CC grant.
    Supportive in-home counseling provided by the case managers and in 
some instances, therapists if mental health issues require more than 
supportive counseling; requiring in-office counseling and psychiatry 
services. The CC grant does not support this service.
    Outreach is a critical component of work with survivors. It is most 
important that any and all potential obstacles to care and support be 
removed; including perceived barriers, not just physical or 
bureaucratic ones. The State of Florida provides limited funding for 
outreach activities. However, this is very limited and we are 
constrained in outreach by the limited funds we have available to serve 
new clients who might come forward.
    Financial Assistance is often a need expressed by survivors and is 
observed and verified by professionals who work with them. Many live on 
fixed incomes, having depleted their savings. Many have lived beyond 
the years they planned for, in their retirement. Medical expenses, 
prescription medications, medical co pays and premiums are beyond their 
capacity to successfully manage and many survivors chose to go without 
medical attention. A portion of these services are paid for by the CC 
grant.
    Socialization, through annual programs such as Cafe Europa and 
monthly drop in Eat & Schmooze opportunities are important to the well-
being and health of survivors. Particularly in south east Florida, 
where transportation is extremely limited and isolation in senior 
residential developments poses so many problems. A portion of these 
services are paid for by the CC grant.
Current Situation--Demographics and Description of Those we Serve:
    <bullet>  We currently have more than 380 open active cases 
(caseload)
    <bullet>  Forty percent of our survivors receive in-home care at 
this time
    <bullet>  Average hours of in-home care (both medical and 
nonmedical) provided: 16 hours a week
    <bullet>  70 percent of those we are currently serving live alone
    <bullet>  35 percent reside with caregivers, at risk themselves for 
illness and incapacity form the stressors of caregiving
    <bullet>  75 percent of our current survivors are female
    <bullet>  It is estimated that of the current home care caseload, 
45 percent could use more hours to ``stave off' a crisis from occurring 
by having greater support in-home
    <bullet>  Approximately 25 percent of the home care caseload would 
benefit from more than the maximum number of hours allowable through 
the grant (maximum of 25 hours a week), to prevent inappropriate 
institutionalization
    <bullet>  Each year, for the past 5 years, we have opened between 
50 and 70 new cases of survivors who need help
    One of the most challenging situations we have observed over the 
past 5 years, impacted by the economy is the reduction of family 
financial resources to directly help their Holocaust survivor parents, 
by supplementing their income or paying for care.
                               __________
                               
 Prepared Statement of Anat Bar-Cohen, Daughter of Holocaust Survivors
    Good afternoon. My name is Anat Bar-Cohen. I am the daughter of two 
survivors of the Holocaust, Jack Pavony and Barbara Borer Pavony. Both 
endured several ghettos and concentration camps and the infamous death 
march. I was born in a Displaced Person's camp in Turcheim, Germany 
where my parents met after the war. Motivated by this background, I am 
also the co-president of the Generation After, Inc., the Washington 
Metropolitan organization of descendants of the Holocaust, and a 
founding Coordinating Council member of Generations of the Shoah, 
International.
    I am pleased to be called to testify at these hearings both on 
behalf of my own family who witnessed and endured many of the agonies 
and barriers to care that you heard in Mr. Rubin's testimony, but also 
to represent the voices of the second and third generations. The 
families who have lived with the impact of the physical and emotional 
health needs of our survivor parents and grandparents all these years 
are now watching and coping with the much more exacerbated needs that 
have emerged as survivors age and their horrific histories come back to 
plague them once again.
    Senator Nelson, Ranking Member Senator Collins, and committee 
members, I, too, want to thank you for convening this very significant 
hearing. It has been a long time hope of our community that these 
hearings would be held and a spotlight shone on the unique unmet needs 
of this increasingly fragile group of America's aging community--
America's Holocaust survivors.
    My father was plunged into the nightmare of Auschwitz in 1942 at 
the age of 16. After surviving unspeakable events for over 3 years and 
the Death March, he was freed from Ebensee camp in 1945 by the 
liberating forces of the United States of America. At age 19 he joined 
an American Army camp in Germany as a worker to ``give back'' and, as a 
gesture of what became a lifelong sense of gratitude, requested to join 
the American Army and fight in Japan. He received a letter from 
President Truman thanking him for his courage but telling him he had 
suffered enough in his young life and encouraging him to pick up the 
pieces and create a productive life. He followed President Truman's 
words to the end of his days and truly succeeded.
    He worked hard, created his own business, was a proud American 
voter and taxpayer, a loving father, husband, grandfather and great 
grandfather. His wife, my mother and a survivor of Auschwitz from 
Warsaw, died at age 32 of Hotchkins disease. The tragedies for our 
family did not end in 1945. At age 80, in declining health with 
Parkinson's disease, congestive heart failure and kidney disease, he 
moved as a widower to be with us in the Washington, DC area. After he 
had a bad fall in our multi-level home, we moved to Maryland to a home 
that would provide a safer environment, but by then his needs had 
increased, and he moved to an assisted living arrangement. After other 
falls, it was clear he needed more full time assistance--although his 
social involvement, reading the Washington Post every day, eating 
dinner with other Survivors, participating in holiday, family community 
events did not mark him as a nursing home candidate. Even after moving 
again to a HUD subsidized apartment, his expenses for rent and full 
time aide were $7,834 a month and his income from social security and 
German reparations were $1,753 a month. Despite the family paying for 
part of the home health care, transportation, food, clothing, health 
insurance and all other expenses, it was becoming impossible to sustain 
him in his own home or ours.
    Resurrecting his life out of the ashes, alone, and with an eighth 
grade education, my father, was nevertheless able to amass savings he 
thought would last a lifetime. After just 3 years, he was on the brink 
of destitution and facing an unwarranted life in a nursing home--
something that was unthinkable to him and to us as his family. As would 
be true for most Holocaust survivors, being in an institution with its 
external regimen imposed by uniformed strangers, its sudden loud 
noises, bright lights, and the loss of personal control would have 
surely triggered for my father extreme anxiety and helplessness--and 
the terror of being once more imprisoned.
    Over the past several years, we have learned more and more about 
the effects of Post Traumatic Stress Disorder (PTSD) sadly from 
returning soldiers and victims of atrocities. We understand the unique 
and frightful ramifications of untreated PTSD with its depression and 
increased suicide rates and as a result a portfolio of physical, 
mental, medical and rehabilitative treatments are becoming available to 
treat these symptoms. For this unique community of elderly Holocaust 
survivors who as young people, sometimes as children, witnessed 
massacres, their own parents and family killed in front of them, and 
other atrocities, this portfolio of care was not available in their 
earlier years but is required by many today. Nightmares, which were 
common for survivors when they were younger, have begun to return as 
they age and particularly when they are in unfamiliar settings. We, 
their children, feel helpless to stop this repeat of their past pain 
and anguish. A loss of control is painful to anyone but for survivors, 
who have last every human right and all their freedoms, the threat can 
be agonizingly traumatic and they hold on to their independence to the 
end. When short-term memory fails, they return not to the usual mix of 
childhood memories, but to the horrors of their youth--again doomed to 
relive the deprivation and losses of the past. And when the English 
language learned later in life starts retreating, they revert to their 
mother tongues, making it difficult for health providers to communicate 
and help them, throwing them further into isolation--all special 
considerations for the care they must receive and the home health care 
they need.
    Our family explored every avenue to keep my father in his home or 
ours as his assets disappeared. We turned to every agency in the 
community for assistance--the county, State, the Jewish Family Services 
with its special survivor services funded by the Claims Conference. My 
father received assistance for a hearing aide, metro access cards for 
dialysis trips, a friendly visitor once a week, but that was all. When 
he moved with us to Maryland we had registered him for the Maryland 
Medicaid waiver to provide home health care support to keep him at 
home. Years prior, he had tried to apply for long-term health 
insurance, but because of his precarious health status--some of which 
had its genesis during his beatings and starvation in Auschwitz, he was 
denied. This is a common situation for survivors who bear lifelong 
marks of their fragile health as a result of the Holocaust. In April 
2009, my father was number 9730 on that Medicaid waiver list with a 3 
to 4 year wait. In desperation, I turned to my senator, Senator 
Mikulski, in a letter detailing his plight as a Holocaust survivor and 
asking for her advice. We did receive a hopeful message from the 
Maryland Office of Health and Human Services in response on June 24, 
2009, but alas, my father had passed away on June 6, 2009--4 days shy 
of his 83rd birthday.
    Although these hearings and their outcome can no longer serve my 
father or our family, I hope that his story and his memory will help 
the remaining thousands of survivors, nearly half of whom live below or 
near poverty in the United States alone, whose plight grows more 
desperate by the day. In my own community here in the Washington, DC 
area, the Jewish Social Service Agency JSSA has experienced a 15 
percent budget cut for each of the past 4 years from the Claims 
Conference and other sources, while at the same time experiencing an 
increase in survivor clients, many of whom are in need of increasingly 
more complex and expensive assistance. This decline in funding will 
continue and agencies around the country are being told to find 
matching funds or find other means to cover the shortfall. This has led 
to across-the-board cuts to vital services, placing fragile and 
impoverished survivors on waiting lists, eliminating social events, 
transportation and other crucial services. Washington JSSA had 
projected a shortfall for designated Holocaust survivor services of 
$730,000 for 2013 and similar or greater shortfalls for the next 10 
years.
    In response, groups and generous individuals in the Jewish 
community have made desperate attempts to fill the gaps. A community 
Survivor Initiative has over the past 2 years succeeded in raising $1.9 
million dollars. Even the third generation, grandchildren of survivors, 
have held several happy hours and evenings with survivors to raise 
funds. This is both heartwarming and helpful. But can we be satisfied 
that sporadic private fundraising and grandchildren led happy hour 
events can ever constitute the systematic approach to caring for the 
nation's aging survivors for their final years? Is it not our 
obligation to assure that there is a well-designed plan in place to 
provide comprehensive, ongoing and affordable care in a dignified 
manner to meet the special needs of this community? With these generous 
funds, JSSA was able to restore the cuts to services and now provides 
25 hours a week of home care to a survivor living in poverty. That is 
roughly 4 days a month. For someone needing full time care or even part 
time care. how can this be the best we can do for them?
    As families of survivors and American citizens and taxpayers, we 
call for improved services for the entire elderly community including 
the survivors. Helping the elderly age at home with help from long-term 
health care services is crucial. As with the humane approach of the 
Affordable Care Act, these services need to be available regardless of 
preexisting conditions. Given the economics of home health care versus 
institutional nursing care, we must make it possible for survivors with 
these truly unique needs to afford home health care which will also 
save the system millions of dollars.
    Five years have passed since my father's hour of need. 
Nevertheless, it is gratifying to see that just this past Friday, 
January 10, 2014 CMS has issued its final rules on home and community-
based services providing States with the option to combine multiple 
target populations into one waiver to facilitate streamlined 
administration of HCBS waivers, assist the individual in achieving 
personally defined outcomes in the most integrated community setting, 
ensure delivery of services in a manner that reflects personal 
preferences and choices, and contributes to the assurance of health and 
welfare. The White House, too, has announced that it will appoint a 
special envoy to assist Holocaust survivors who are living in poverty 
with a number of helpful services. All of this is headed in the right 
direction, but we must remember, that the survivors cannot wait, 
services cannot be dependent on fine intentions or yearly negotiations 
that never live up to the needs of this community.
    We in the survivor community also remember the promise made by 
Chancellor Adenaur that Germany would provide for the victims of the 
Holocaust ``to their last breath'' and know that the current state of 
affairs would have caused him anguish. Germany bears the primary 
responsibility for the welfare of the survivors and nothing less than 
making good on that promise will suffice. We turn to the American 
government to make every effort to assure that Germany provides the 
care that survivors need and that they do it now--in the last hours of 
this community's life. The additional funds that have been promised in 
Germany's latest proposal are, as Jack Rubin so eloquently stated, 
completely inadequate. Funds must also be forthcoming from the 
insurance companies that still hold the pre-war claims of our 
families--companies such as Allianz and Generali that make enormous 
profits in the United States, have an obligation to contribute to the 
welfare of Survivors.
    Thank you for listening to my father's story, which is the story of 
so many of our parents. Thank you for this opportunity to voice the 
concerns of second and third generation children and grandchildren of 
survivors on behalf of the needs of our Holocaust survivor parents. As 
advocates for our parents, we are ready to take our seats at the table 
in all decision making that goes on around survivor needs.
    I know what my sisters and brothers are going through today as they 
struggle to shield their frail parents from these harsh realities. Even 
as small children, we knew that this would be our lifelong sacred task 
. . . silently we each pledged to protect them from further pain and 
misery. Now we often feel powerless to change the system that seems to 
have forgotten them--again. Please listen to the authentic and 
legitimate voices of those who truly know about the unmet needs of 
America's Holocaust survivors.
    This is a defining and finite moment in history when Congress can 
act to do the right thing. In ten short years, that moment will be 
forever gone. These wonderful people believed in the power to resurrect 
extraordinary lives, contributed to this country, with appreciation and 
through the strength of their will to survive.
    In the memory of my parents, Jack and Barbara Pavony, and in honor 
of all those survivors still with us, I say to you, ``Do not fail them 
now.''
                               __________
                               
                 Exhibits to Anat Bar-Cohen's Statement
    Cover Letter to Senator Bill Nelson and Senator Susan M. Collins
    Thank you for convening this hearing on ``Aging in Comfort: 
Assessing the Special Needs of America's Holocaust Survivors.'' I am 
pleased to be called to testify in these hearings as a daughter of two 
Holocaust survivors, the co-President of The Generation After, Inc., 
the Washington Metropolitan organization of descendants of the 
Holocaust, and as a founding Coordinating Council member of Generations 
of the Shoah, International.
    The attached documents of testimony include: (1) my April 23, 2009 
letter to Senator Mikulski, written as a desperate daughter coping with 
her aging Holocaust survivor father's mounting health care needs and 
the inadequate and tragic lack of resources to meet them; (2) testimony 
submitted in December 2013 by Esther Finder, President of Nevada 
Generation After to the European Shoah Legacy Institute's 2013 Social 
Welfare Workshop, Prague, (in preparation for the upcoming 2014 Social 
Welfare Conference) detailing more broadly the unique and special unmet 
needs of aging survivors in the United States and internationally; and 
(3) an Op-Ed piece submitted to the Washington Jewish Week, in December 
2012 on the failure of the German government and Claims Conference 
frameworks, specifically established to care for survivors, a failure 
that has seen survivors living in poverty, being placed on waiting 
lists for basic needs, and suffering unnecessary indignities when they 
are at their most vulnerable.
    The documents together paint a portrait of the special needs of 
Holocaust survivors who experience aging phenomena like dementia, 
short-term memory loss and paranoia as victims of post traumatic stress 
disorder of the worst kind. For example, when short-term memory fails, 
many revert to their early memories--not the usual mix of childhood 
memories--but childhood memories of torture, starvation, beatings, loss 
of family and other unspeakable trauma. Also described are the 
insurmountable barriers to care survivors and their families experience 
and the agonizing dilemmas they face to avoid things like 
institutionalizing survivors. Such settings too often trigger the Shoah 
induced nightmares from which we children of survivors have spent our 
lives protecting our parents. It also paints a picture of inadequate 
and underfunded State, local and Jewish social and health services, the 
latter created and funded specifically to protect and provide for the 
survivors until their dying days.
    Thank you for entering this testimony into the record and again for 
affording me the opportunity to voice the concerns of second generation 
children of survivors on behalf of the needs of our Holocaust survivor 
parents.
                               __________
                               
     Anat Bar-Cohen Letter to the Honorable Senator Barbara Mikulski
    I am writing to you on behalf of my father, Jack Pavony of 
Rockville, Maryland, We were so stirred by your words at the Yom 
Hashoah Commemoration at Beth Shalom this Sunday and so moved by 
meeting you that day that we were inspired to contact you directly 
about his current plight. We are turning to you to ask for your help in 
gaining him a Medicaid waiver so that he can have the assistance he 
needs for kidney dialysis and Parkinson's disease to remain in the 
community--not be sent to a nursing home--a far more expensive and 
disastrous solution.
    As we mentioned that day, my father is a three and a half year 
survivor of Auschwitz--the number on his arm is one of the lowest 
numbers you will ever see, and as a 15-year-old boy sent to that 
extermination camp in 1942 with his parents, he somehow survived--
albeit alone in the world. He is Polish as you are and he took us on a 
trip similar to the one you described--to find our roots in Poland--we 
stood in front of the same bins at Auschwitz that you so eloquently 
detailed and the feelings were mutual--although the memories they 
brought to him are nightmares he lives with every day.
    He has been a hard worker creating his own business, a patriotic 
American citizen and taxpayer, a loving father, husband and now 
grandfather and great grandfather. We are all thankful for these 
blessings. His wife, my mother and a survivor of Auschwitz from Warsaw, 
died at age 32 of Hotchkins disease. The tragedies for our family did 
not end in 1945. Now at age 83, and with savings he thought would last 
a lifetime, my father is facing destitution and an unwarranted life in 
a nursing home which for him will feel like he is back in Auschwitz--an 
institution with uniformed strangers, a loss of control, the loss of 
home, friends, his identity. He requires full time care because of a 
fall risk due to Parkinson's disease, congestive heart failure and 
kidney failure that has him depending for his life on dialysis three 
times a week. The costs have ruined him financially--but he has 
maintained a true quality of life despite his disabilities.
    He is a true survivor--in every sense of the word--he continues to 
live a meaningful life in his one bedroom apartment at the Revitz 
House--with full time assistance. He reads the Washington Post and New 
York Times every day, has dinner with his friends when he has the 
strength--they are survivors, too, and they give each other strength. 
He sees his family often, reads a great deal about WW II and history, 
listens to music, meets with the Holocaust Survivor Group and attends 
events like the one you participated in on Sunday. He has spoken to 
young people in schools to share his story and to teach the lessons of 
the Holocaust. He has inspired me to be on the Board of Directors of 
the Washington area Generation After and co-founder of the Generations 
of the Shoah International to keep the legacy of our parents alive and 
educate the world about the menace of genocide and intolerance. My 
brother and I translated and printed the memoirs my father dictated of 
his war years as another attempt to share this horrific past and learn 
from it. Many friends and family have a copy and read from it yearly 
during the Passover Seder about slavery and freedom.
    As we explore every avenue to keep my father in his home and as his 
assets dwindle even with our assistance, we have turned to every agency 
in the community for assistance. He moved to Maryland to be with us 2 
1/2 years ago and we registered him for the Maryland Medicaid waiver 
about a year later. He is number 9730 on that list and they tell us 
there is no way to know how long that will take--but it appears it will 
be at least 3 years. Receiving support for home assistance that would 
keep him from a nursing home is the most economical and humane solution 
to his plight. He cannot wait 3 years for this opportunity given his 
financial and medical situations. Even living in a HUD subsidized 
apartment, his expenses for rent and full time aide are $7,834 a month 
and his income from social security and German reparations are $1,753 a 
month. Even with the family paying for transportation, food, clothing, 
health insurance and all other expenses, you can see that we cannot 
sustain him in his home or ours.
    We are turning to you as our Senator, as a social worker, and as a 
compassionate public official who has roots and understanding of the 
world my father came from and is currently living in--to ask for your 
assistance in providing my father a solution to this crisis. If he 
could receive the Medicaid waiver and financial support to stay at 
Revitz House with full-time assistance it would literally save his 
life. We are more than willing to have him live at our home as well, 
but the assistance is needed because of severe danger of falling and 
all of the care he needs with the dialysis.
    We would be willing to do whatever is necessary to find a solution 
to avert a final tragedy in the life of our father--who has had to bear 
so many traumas and losses. At age 19, after the Death March, and after 
our father was liberated from the camps, he joined an American Army 
camp as a worker to ``give back'' and as a true gesture of thanks, 
attempted to join the American Army and fight in Japan. He received a 
letter from President Truman thanking him for his courage but telling 
him he had suffered enough in his young life and encouraging him to 
pick up the pieces and create a productive life. He followed President 
Truman's words all of his life and succeeded. Please assist us in 
finding an honorable and just solution to this last chapter in his 
life--one that will save the State countless thousands of dollars and 
maintain dignity and meaning.

Sincerely,

Jack Pavony and Annette Bar-Cohen
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                Anat Bar-Cohen and Esther Toporek Finder
Op Ed: Fiscal Cliff for Holocaust Survivors, Submitted and Published in 
              the Washington Jewish Week, December 5, 2012
    There is not much similarity between the fiscal cliff most 
Americans face and what is ahead for far too many Holocaust survivors. 
The one commonality is that both crises are man-made and within man's 
power to remedy.
    Jewish Social Service agencies around the US are dealing with 
shortfalls with regard to funds for needy Holocaust survivors. What is 
not widely known is that almost half the survivors in the US live at or 
below poverty level. Though the number of survivors diminishes daily, 
those still with us have increasing needs. People who went through the 
bottomless evil that was the Shoah are dealing with the ravages of 
poverty in old age.
    The German government has provided moneys to help the survivors but 
not all the money collected in the name of survivors ever reached them. 
The organization responsible for distributing this money, the Claims 
Conference, has failed in several major respects and has quite a 
checkered history.
    The Claims Conference took it upon itself to decide that not all 
the German funds were needed for survivor care so they initiated a 
system where some of the moneys would go to projects they deemed 
worthy. They decided that about $18 million of the money they 
distributed annually would not be used for survivors. Instead it would 
be used for educational and other programs including many programs of 
Claims Conference board members and their affiliates. As the public 
outcry got louder because the needs of the survivors were not always 
being met, the Claims Conference raised the amounts devoted to 
survivors but refused to cut non-survivor grants to various Jewish 
organizations. The aggregate amount of these diverted funds for over a 
decade exceeds $250 million.
    As long as there is even one survivor in need, every single penny 
should go to their care. It is unconscionable that any member of the 
Jewish community, let alone the leadership of major Jewish 
organizations, would allow our aging survivors to suffer again. The 
moneys were collected in the name of the survivors and should go 
directly to their care. Anything less than that is morally bankrupt.
    Where are these moneys going? Who is getting the money and why? Is 
there any conflict of interest in that moneys are going to member 
organizations of the Claims Conference board? Do the major Jewish 
organizations need to be subsidized for educational programs with funds 
that could be used for dental care, hearing aids or utility subsidies 
for indigent survivors? What are we supposed to think when $50,000 was 
contributed for a one night gala concert at the Kennedy Center 
organized by the special negotiator of the Claims Conference when the 
most a needy survivor can get annually from emergency funds is $2,500?
    For years survivors groups, notably Holocaust Survivors Foundation 
(HSF)--USA and Generations of the Shoah International (GSI) have called 
for transparency and accountability from the Claims Conference. Instead 
we learned that a monumental fraud took place and tens of millions of 
dollars were stolen from the Claims Conference. Had there been greater 
transparency and accountability this might not have happened/might have 
been discovered sooner. In any case the Claims Conference's Statement 
that the money lost will have no impact on survivor care is absurd. 
$50,000,000+ could have helped a lot of survivors get food, medicine, 
etc.
    Now we are faced with a tremendous problem so what kinds of 
solutions can we come up with? Here is one: for years the Claims 
Conference has sided with foreign insurance companies, who sold 
policies to Jews before WWII but have not satisfied all outstanding 
claims, against survivors who want to take these insurance companies to 
US courts. Instead of fighting against the survivors the Claims 
Conference, and the major Jewish organizations who are members of/
recipients of funds from the Claims Conference, should support the 
survivors' rights to recover all unpaid policies, and for the insurers 
to disgorge remaining ill-gotten gains by providing long term health 
care and other services for the survivors.
    In their hour of greatest need the Claims Conference is failing 
Holocaust survivors and we are watching this happen. Have we become 
bystanders? That behavior was reprehensible during WWII and is totally 
inexcusable now.

Esther Toporek Finder, Past President, The Generation After, 
Washington, DC, Member of the Coordinating Council of Generations of 
the Shoah International (GSI), Member of the US Delegation to the 
Holocaust Era Assets Conference, 2009

Anat Bar-Cohen, MA, MPH, Co-President, The Generation After, Washington 
DC, Member, Coordinating Council of Generations of the Shoah 
International (GSI)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Prepared Statement of Lee I. Sherman, President and CEO, Association of 
                 Jewish Family and Children's Agencies
    Chairman Nelson, Ranking Member Collins, and distinguished 
Senators: It is my honor to speak before you about the unique issues 
affecting survivors of the Holocaust and the social services available 
to meet their needs. My name is Lee Sherman, and I am the President/CEO 
of the Association of Jewish Family & Children's Agencies (AJFCA). 
AJFCA represents 125 social service providers throughout the U.S. and 
Canada that aid vulnerable populations of all faiths and backgrounds. 
We are part of the Jewish Federation system, the second largest network 
of charities on the continent. We partner with The Jewish Federations 
of North America, and our member agencies partner with nonprofits, 
State and local government, and community businesses and organizations 
to feed the hungry, house the homeless, and help families going through 
crisis. Throughout most of the country, our member agencies provide the 
vast majority of services to Holocaust survivors in the U.S.
    It is our estimate that there are some 120,000 Holocaust survivors 
living in the United States today. It is impossible to determine exact 
numbers, as some Holocaust survivors choose not to self-identify, and 
some survivors are not known to the social service agencies in their 
communities. We do know that all of them are elderly, and that the vast 
majority of survivors we serve are in their 80's, 90's, or older. While 
they live in communities across the United States, most are 
concentrated in the population centers of New York, South Florida, Los 
Angeles, and Chicago. Many also live in Detroit, Houston, San 
Francisco, Philadelphia, Maryland, Atlanta, and other cities.
    Approximately 25 percent of Holocaust survivors--some 30,000 
survivors--live at or below the poverty line, and struggle to meet 
their basic needs for housing, food, health care, transportation, and 
meaningful human interaction. Without immediate action on behalf of 
these survivors, we risk losing them to the very things they should 
never have to face again--eviction, hunger, inadequate medical care, 
loneliness, social isolation, and despair.
    Approximately half of Holocaust survivors in the U.S. today 
immigrated before 1965. These survivors assimilated into American 
culture, obtained jobs, and raised successful families. Their financial 
situation is comparable to that of other older adults who were not 
victims of Nazi aggression. The other half of Holocaust survivors 
arrived in the U.S. after 1965, largely from countries of the former 
Soviet Union. They suffered again under communism and faced greater 
challenges assimilating in America. Many of them still do not speak 
English. About half of these survivors have annual incomes beneath the 
Federal poverty threshold. They are extremely vulnerable and reliant on 
social services to meet their basic needs.
    Economically vulnerable survivors need services to help them 
maintain their physical, financial, and social-psychological well-
being. These services include:
    <bullet>  Home-based services, including home health care, personal 
care, home-delivered meals, and home modifications.
    <bullet>  Financial and legal services, including emergency 
assistance to help pay rent and utilities; assistance with medical and 
dental bills and medications; assistance applying for public benefits; 
and legal assistance with any or all of the above.
    <bullet>  Counseling and socialization services, including 
screening and treatment for depression, post-traumatic stress disorder, 
and cognitive impairment; caregiver support; and opportunities for 
socialization in a safe, supportive environment such as Cafe Europa, a 
social program for Holocaust survivors funded by the Claims Conference 
and organized by our agencies.
    <bullet>  Access services, including outreach, information and 
referral, assessment and benefits screenings, case management, and 
transportation.
     It is crucial to ensure that Holocaust survivors can access these 
services. At times, survivors may not know how to access the services, 
may not think it applies to them, or may otherwise be hesitant to ask 
for help. Therefore, we provide assistance to help survivors benefit 
from these services.
    Our members provide these services to many older adults to help 
them live independently in their communities. But for Holocaust 
survivors, this is critical. For survivors, removal from one's home 
results in the loss of autonomy, loss of independence, and loss of 
control over one's daily life. This loss of control has the potential 
to trigger psychological impacts from experiences in the Holocaust.
    For example, some Holocaust survivors may resort to hiding food in 
their rooms, insecure about when their next meal will come, and how 
much food will be available to them. Waiting in line for meals may 
produce great anxiety; and restrictions of movement, such as a 
requirement to remain in their bedroom during certain hours, may remind 
some survivors of earlier, harsher periods of confinement. Some 
survivors learned long ago to fear and mistrust doctors, white coats, 
or uniforms because of their terrifying experiences with Nazi soldiers 
and medical experiments. Some survivors may unsafely attempt to stand 
or walk without assistance, because during the Holocaust, their 
strength sustained them, while the sick and the weak were marked for 
death. Unfamiliar showers are particularly traumatic to survivors of 
concentration camps, some of which contained gas chambers disguised as 
showers. Even socially adjusted survivors who have adapted well their 
entire lives in America may experience these triggers later in life, 
especially if compounded by dementia or Alzheimer's.
    For these reasons, our agencies will go to great lengths to help 
any survivor in need access the services to enable them to live safely 
in their homes and communities. Many of these services are the same 
services that all low-income seniors need to age in place. The 
difference for survivors is in how the services are offered and 
presented to them. For example, Holocaust survivors are particularly 
proud of their independence and may be hesitant to ask for 
transportation assistance. A specially trained social worker can assist 
the survivor by telling them about the transportation program and 
explaining that the service and the driver are safe and reliable. 
Drivers can be trained to be sensitive to the needs of survivors and to 
know how to react if a survivor speaks about the Holocaust.
    This again is where our agencies come in. We work with survivors' 
families to make sure they have the proper care and supports to help 
them age in place. We raise awareness in the community and we 
fundraise. We provide opportunities for survivors to socialize in safe 
environments and avoid the devastating consequences of loneliness and 
social isolation.
    The need for these services will continue to grow as survivors age, 
and our agencies are already struggling to meet the demand. Our member 
agencies receive funding from their partner Jewish Federations, and 
they receive money for home care and emergency services for Holocaust 
survivors through The Conference on Jewish Material Claims Against 
Germany, which is the largest funder of social welfare services for 
Holocaust survivors in the U.S. The Conference on Jewish Material 
Claims Against Germany provides additional support such as the 
dissemination of best practices for serving Holocaust survivors. Still, 
the funding is not enough, and our agencies report that they require an 
additional $100,000 to $4,000,000 per year to provide for the basic 
needs of Holocaust survivors in their communities. AJFCA and our local 
agencies have commenced fundraising campaigns to bridge the shortfalls.
    AJFCA works closely with The Jewish Federations of North America to 
educate policymakers and build public support for the goal of ensuring 
that Holocaust survivors have their daily needs met.
    We are grateful for the bipartisan support of members of the U.S. 
Senate and House of Representatives. In particular, we thank the 
champions of the Responding to Urgent needs of survivors of the 
Holocaust, or the ``RUSH'' Act, Senator Cardin and Senator Kirk, along 
with Chairman Nelson, Chairwoman Mikulski, Senator Portman and the 
other bipartisan cosponsors of the RUSH Act, to help more Holocaust 
survivors access services to age in place. Many of the necessary 
services are funded through the Older Americans Act, and we are 
inspired by the Senate Committee on Health, Education, Labor and 
Pensions for recognizing this need. We thank the Senate Committee on 
Health, Education, Labor and Pensions for approving the bipartisan 
Older Americans Act (OAA) reauthorization bill on October 30, 2013, and 
for including in it a requirement for the Administration on Aging to 
consult with organizations serving Holocaust survivors and issue 
guidance on outreach to the survivor population for OAA programs.
    We also welcome Vice President Biden's recent announcement about 
the Obama Administration's commitment to helping impoverished Holocaust 
survivors. The White House has offered a three-pronged approach to help 
Survivors:
    <bullet>  The appointment of a special envoy in the Department of 
Health and Human Services to serve as a liaison to Holocaust survivors 
and the organizations that serve them.
    <bullet>  The commitment of the Corporation for National and 
Community Service to deploy VISTA volunteers to help build the capacity 
of organizations serving Holocaust survivors.
    <bullet>  The exploration of public-private partnership 
opportunities to increase the resources to serve Holocaust survivors.
    We are extremely grateful to President Obama, Vice President Biden 
and the talented White House staff for their thoughtfulness and 
innovative ideas on how to address the social service needs of 
Holocaust survivors. AJFCA and The Jewish Federations of North America 
are glad to serve as leaders implementing these initiatives.
    After all, Holocaust survivors are proud Americans. They remember 
the young, courageous American soldiers who liberated the concentration 
camps. They are grateful to the United States for providing them the 
freedoms denied earlier in life, and for making possible the 
opportunities to succeed through hard work and commitment. Holocaust 
survivors have contributed greatly to the fabric of our Nation, 
becoming Nobel laureates, doctors, scientists, philanthropists, 
academics, and business owners. As we know, the late Tom Lantos, a 
Holocaust survivor, served as Chairman of the House Foreign Affairs 
Committee. They have raised families and their children and 
grandchildren continue to enrich our Nation. Holocaust survivors have 
taught us, and continue to teach us, the most valuable lessons about 
humanity, diversity, and the strength of the human spirit. They have 
made America a better place.
    Yet, as we know too well, thousands of Holocaust survivors have had 
difficulty adjusting. Living in poverty, plagued by immeasurable loss, 
they are at risk of falling into isolation and despair. It is for 
them--and to honor the memory of the six million Jews murdered in the 
Holocaust--that we commit ourselves each and every day to ensure they 
live with respect and dignity. It is our greatest honor to ensure that 
those who suffered the most heinous brutality of the last century are 
able to live their twilight years with dignity, comfort, and security. 
Holocaust survivors are living, breathing triumphs of survival over 
bigotry and hatred. I thank this Committee, my fellow witnesses, and 
concerned members of the community for shining a light on their unique 
needs and circumstances. Thank you.

    
      
=======================================================================


                  Additional Statements for the Record

=======================================================================


               Opening Statement of Chairman Bill Nelson
    Good afternoon everyone, and thank you for being here today as we 
discuss a very important issue: caring for America's Holocaust 
survivors.
    It is difficult to know the exact number of holocaust survivors in 
the United States today because many of our survivors do not want to 
talk about the unspeakable horror they endured to even their own family 
members.
    But according to some estimates, the number of survivors now range 
anywhere from 109,000 to upwards of 150,000.
    One thing is certain: This population has survived an unspeakable 
horror, a trauma not comparable to any other.
    Many Holocaust survivors face lasting health problems as a result 
of long periods of psychological abuse, upheaval, malnutrition, direct 
physical assault, and exposure to severe weather conditions with 
minimal clothing and footwear.
    In women, for instance, the incidence of osteoporosis is 
significantly higher among Holocaust survivors due to malnutrition, 
lack of exercise and sunlight, and forced labor at a young age in the 
camps.
    Furthermore, a November 2009 National Cancer Institute study found 
that Holocaust survivors were at a higher risk for cancer occurrence 
later in life.
    Above all, the post-traumatic stress suffered by Holocaust 
survivors is exacerbated by the normal aging process; for many 
Holocaust survivors, the normal feelings of anxiety triggered by the 
natural process of aging and reflecting on one's life reactivate long-
buried symptoms of trauma.
    These complex dynamics require a different approach to traditional 
long-term care models. The emphasis on caring for aging survivors must 
be on creating a safe space surrounded by a trusting caretaker, 
familiar environment, and a basic sense of control over daily life.
    For many of these seniors, this means staying in their homes to 
receive medical care in their twilight years, a model of care not 
supported by the traditional Medicaid model, for instance.
    I am proud that the United States has a legacy of caring for the 
needs of aging Holocaust survivors. But, we must recognize that the 
demand for care is still there--and only becoming more challenging.
    Today we will examine the unique needs of Holocaust survivors in 
the U.S., what services are available to them, and what gaps in 
services need to be filled in order to meet their needs.
    I want to extend a special thank you to Mr. Jack Rubin and his son, 
David, who have traveled here from Florida to discuss this important 
issue. Jack is a Holocaust survivor and a constituent of mine, and it's 
a pleasure to welcome you back to Washington.
    I look forward to hearing from our other witnesses, as well.
    America's Holocaust survivors deserve not only the best care as 
they get older, but the right kind of care that is respectful of the 
experience they have endured. It is our obligation to at least do 
everything we can, for as long as we can.
                               __________
                               
               Statement of Senator Robert P. Casey, Jr.
    Mr. Chairman, thank you for holding today's hearing on the 
challenges faced by Holocaust survivors in the United States. As you 
may know, in Pennsylvania the State legislature is taking up 
legislation to mandate Holocaust education. Assuring that Pennsylvania 
students are taught about World War II, including Hitler's 
extermination and confinement of Jews, is important for our students 
learning and understanding of history.
    Just as the truths of World War II need to be understood, we also 
need to understand the unique health challenges of Holocaust survivors. 
Although the number of survivors is decreasing, the number of survivors 
who need assistance is increasing. Some survivors may reach the point 
where they need care in a nursing home; however, for this population, 
placement in a nursing home is problematic. It is likely that a nursing 
home setting could re-trigger trauma from their earlier experiences. 
For example, unknown uniformed staff and highly regimented days could 
serve as reminders of the trauma they endured and this could lead to 
distress.
    It is clear that for Holocaust survivors, and for all older adults, 
the system needs a robust home care option. At the same time, meal 
programs, supportive services and centers, and disease prevention and 
health promotion programs must also be available. From FY 2011 to FY 
2012, there was a $2.57 million cut in these Older Americans Act 
programs, while the number of older adults only increased. 
Pennsylvania, with 2 million older citizens, has the third largest 
population of older citizens in the country. This figure, representing 
roughly 16 percent of the population of the entire State, continues to 
grow each day. This is the situation in other States as well.
    Addressing the needs of America's vulnerable seniors has reached a 
critical threshold. We must find solutions to assure that services and 
programs are in place to help those in need. Likewise, we must ensure 
that service providers are prepared to meet the unique needs of our 
aging population.
    I again would like to thank the Chairman for calling this hearing. 
I look forward to hearing the testimony and working with my colleagues 
to find solutions to these challenges.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 William C. Daroff, Senior Vice President for Public Policy & Director 
   of the Washington Office, The Jewish Federations of North America
    Chairman Nelson, Ranking Member Collins and distinguished Senators: 
I am honored to submit testimony for the Special Committee on Aging for 
your hearing ``Aging in Comfort: Assessing the Special Needs of 
America's Holocaust Survivors.'' My name is William C. Daroff and I am 
the Senior Vice President for Public Policy & Director of the 
Washington Office of The Jewish Federations of North America (JFNA). 
The Jewish Federations of North America represents 153 Jewish 
Federations and over 300 Network communities, taking responsibility for 
each other according to Jewish principles. The Jewish Federations raise 
and distribute more than $3 billion annually for social welfare, social 
services, and educational needs. The Federation movement, collectively 
among the top 10 charities on the continent, protects and enhances the 
well-being of Jews worldwide through the values of tikkun olam 
(repairing the world), tzedakah (charity and social justice), and Torah 
(Jewish learning).
    Jewish Federations across the continent raise awareness and money 
for the care of aging Holocaust survivors. Federations raise funds in 
the community, either through their Annual Campaign or through 
dedicated fundraisers for Holocaust survivor programs. The money is 
distributed to a network of Federation affiliated agencies, many of 
which are Jewish family service agencies, which provide the direct care 
to thousands of Holocaust survivors. Federations also raise money on 
behalf of Jewish community centers, which host health, nutrition, and 
social programs for seniors and Holocaust survivors. We work closely 
with the Association of Jewish Family and Children's Agencies to 
address the needs of Holocaust survivors.
    Holocaust survivors have been active in Federations for decades, 
providing support for the fledgling State of Israel and marching for 
the freedom of Soviet Jews, many of whom were Holocaust survivors. Many 
survivors enjoy being active in synagogue life and participating in 
Jewish cultural events. We want to make sure that survivors can 
continue to remain part of our communities for as long as possible. We 
want survivors to know that they are cherished, that we are grateful 
for their contributions to our communities, and that we are indebted to 
their will to survive the unthinkable horrors of the Holocaust. They 
have enriched our lives and we must honor theirs.
    Today, Holocaust survivors are elderly and more are becoming frail 
each day. Of the approximately 120,000 Holocaust survivors currently in 
the United States, it is estimated that about a quarter are living at 
or below the Federal poverty line, placing them at higher risk of 
isolation and potentially traumatic institutionalization. Poverty is 
most pervasive in the population of survivors that immigrated to the 
United States after 1965 from countries of the former Soviet Union. 
These survivors have had less time to integrate into the American 
workforce. Many of them do not speak English. About half of the 
survivors who are in this group are suffering from poverty, while 
survivors who immigrated earlier, before 1965, are at a socioeconomic 
level comparable to the general population of seniors.
    In order to remain in their homes and communities, Holocaust 
survivors need home health care, assistance with transportation, help 
paying medical and dental bills, and rental assistance or affordable 
housing. Federations have experienced an increased number of requests 
in recent years to support local Holocaust survivor programs. They are 
reporting higher numbers of survivors seeking care, and higher costs 
associated with providing the care. Many survivors need additional 
support beyond the home care provided by the Conference on Jewish 
Material Claims Against Germany (``Claims Conference''), which is the 
largest funder of social welfare services for Holocaust survivors in 
the U.S. The German Government places restrictions on the use of Claims 
Conference allocations, creating gaps in funding. For example, the 
Claims Conference can only pay for a maximum of 25 hours of home care 
per week for a client. For a survivor who needs round the clock care, 
or even daytime care, the funding gap is significant. Claims Conference 
dollars cannot be used for home care if the client lives in an assisted 
living or long-term care facility, and some survivors would benefit 
from this care.
    Despite successful negotiations with the German Government 
resulting in increases in allocations from the Claims Conference, the 
family service agencies are still facing shortfalls in 2014 for their 
Holocaust survivor programs. Many Federations have responded by 
increasing their allocations to Jewish family service agencies, or by 
hosting dedicated fundraisers. For example, in Greater Washington, 
Federation leaders hosted in their home an emergency fundraising 
meeting at which participants collectively pledged $1.7 million for 
services for local Holocaust survivors.
    Federations are proud to work with agencies serving survivors, and 
The Jewish Federations of North America is honored to provide strategic 
leadership at the national level. We are currently working with the 
White House to implement the initiative that Vice President Biden 
announced in December 2013:
    <bullet>  The appointment of an envoy in the Department of Health 
and Human Services to serve as a liaison to Holocaust survivors and the 
organizations that serve them.
    <bullet>  The commitment of the Corporation for National and 
Community Service to deploy VISTA volunteers to help build the capacity 
of organizations serving Holocaust survivors.
    <bullet>  The exploration of public-private partnership 
opportunities to increase the resources to serve Holocaust survivors.
    Together with the Association of Jewish Family and Children's 
Agencies, JFNA is working with the White House to set these plans in 
motion to ensure that all Holocaust survivors are able to live in their 
homes and communities.
    JFNA's Washington Office is pleased to serve as a resource to 
members of the U.S. Senate and House of Representatives on matters 
involving Holocaust survivors and other elderly. Jewish Federations and 
our partner family service agencies host programs that are supported by 
the Older Americans Act, and we are pleased that the Senate Committee 
on Health, Education, Labor and Pensions approved the bipartisan 
reauthorization of the Older Americans Act on October 30, 2013. This 
reauthorization included a requirement for the Administration on Aging 
to consult with organizations serving Holocaust survivors and issue 
guidance on outreach to the survivor population for Older Americans Act 
programs.
    JFNA strongly endorses the Responding to Urgent needs of Survivors 
of the Holocaust, or the ``RUSH'' Act, which aims to help more 
Holocaust survivors age in place. We thank the RUSH Act sponsors, 
Senator Ben Cardin, Senator Mark Kirk, and Senator Bill Nelson; and 
Congresswoman Debbie Wasserman Schultz and Congresswoman Ileana Ros-
Lehtinen, for their steadfast commitment to this issue.
    I thank the Committee for prioritizing the needs of Holocaust 
survivors and for dedicating time to this hearing, and I thank the 
witnesses for bringing their unique perspectives to this conversation. 
The Jewish Federations of North America looks forward to continuing our 
work to ensure that Holocaust survivors are able to live in dignity, 
comfort, and security in their homes and communities.
  

                                  [all]
</pre></body></html>
